<html>
<title> - ASYLUM ABUSE: IS IT OVERWHELMING OUR BORDERS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   ASYLUM ABUSE: IS IT OVERWHELMING 
                              OUR BORDERS?
=======================================================================


                                HEARING

                               BEFORE THE

                        COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2013

                               __________

                           Serial No. 113-56

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
85-905                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
RAUL LABRADOR, Idaho                 SUZAN DelBENE, Washington
BLAKE FARENTHOLD, Texas              JOE GARCIA, Florida
GEORGE HOLDING, North Carolina       HAKEEM JEFFRIES, New York
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel


                            C O N T E N T S

                              ----------                              

                           DECEMBER 12, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Member, Committee on the Judiciary....     3

The Honorable Jason Chaffetz, a Representative in Congress from 
  the State of Utah, and Member, Committee on the Judiciary......     6

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     7

                               WITNESSES

Michael J. Fisher, Chief of the U.S. Border Patrol, Customs and 
  Border Patrol
  Oral Testimony.................................................    25

Lori Scialabba, Deputy Director, U.S. Citizenship and Immigration 
  Services
  Oral Testimony.................................................    26

Daniel H. Ragsdale, Deputy Director, Immigration and Customs 
  Enforcement
  Oral Testimony.................................................    27
  Joint Prepared Statement.......................................    30

Ruth Ellen Wasem, Specialist in Immigration Policy, Congressional 
  Research Service
  Oral Testimony.................................................    45
  Prepared Statement.............................................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    10

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    68

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................    75

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................   173

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................   184

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................   200

Material submitted by the Honorable Jason Chaffetz, a 
  Representative in Congress from the State of Utah, and Member, 
  Committee on the Judiciary.....................................   204

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................   212

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   220

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................   224


                   ASYLUM ABUSE: IS IT OVERWHELMING 
                              OUR BORDERS?

                              ----------                              


                      THURSDAY, DECEMBER 12, 2013

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:16 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Coble, 
Smith of Texas, Chabot, Forbes, King, Franks, Gohmert, Jordan, 
Poe, Chaffetz, Marino, Gowdy, Labrador, Farenthold, Collins, 
DeSantis, Conyers, Scott, Lofgren, Jackson Lee, Johnson, Chu, 
Deutch, Gutierrez, and Garcia.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Dimple Shah, Counsel; Kelsey Deterding, Clerk; (Minority) Perry 
Apelbaum, Staff Director & Chief Counsel; Danielle Brown, 
Parliamentarian; and Tom Jawetz, Counsel.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order. And without objection, the Chair is authorized 
to declare recesses of the Committee at any time.
    I will begin with my opening statement. The United States 
of America is extremely hospitable to immigrants, asylees, and 
refugees. Our Nation's record of generosity and compassion to 
people in need of protection from war, anarchy, natural 
disaster, and persecution is exemplary and easily the best in 
the world.
    We have maintained a robust refugee resettlement system, 
taking in more United Nations designated refugees than all 
other countries combined. We grant asylum to tens of thousands 
of asylum seekers each year. We expect to continue this track 
record in protecting those who arrive here in order to escape 
persecution.
    Unfortunately, however, because of our well-justified 
reputation for compassion, many people are tempted to file 
fraudulent claims just so they can get a free pass into the 
United States. The system becomes subject to abuse and fraud 
when the generous policies we have established are stretched 
beyond imagination by the Administration.
    It also becomes subject to abuse when people seek to take 
advantage of our generosity and game the system by identifying 
and exploiting loopholes. Unfortunately, some advocacy groups 
have undertaken a strategy of staging public violations of 
immigration laws in a brazen attempt to politicize the issue of 
immigration reform.
    They somehow seem to believe that this is productive. It is 
just the opposite. In one example, the so-called Dream 9 and 
Dream 30 voluntarily crossed the border and returned to their 
home countries with orders of deportation. Just days later, 
pursuant to their plan, they were apprehended by Border Patrol 
and claimed that they had a credible fear of returning to the 
very country to which they just intentionally self-deported.
    Political stunts like these demonstrate the ineffectiveness 
of the asylum process and damage credible claimants. Unlawful 
or inadmissible aliens caught along the border or at ports of 
entry can claim a credible fear of persecution in order to seek 
a hearing before an immigration judge.
    Over the past several years, credible fear claims have been 
granted at ever-growing rates. Currently, data provided by the 
Department of Homeland Security shows that USCIS makes positive 
credible fear findings in 92 percent of all cases decided on 
the merits. Not surprisingly, credible fear claims have 
increased 586 percent from 2007 to 2013, as word has gotten out 
as to the virtual rubberstamping of applications.
    Not only is the rise in credible fear claims concerning, 
the Administration is contributing to undermining our asylum 
system by failing to follow current law as it pertains to the 
asylum process. Pursuant to the Immigration and Nationality 
Act, arriving aliens are subject to mandatory detention, 
whether they are found to have credible fear or not, until it 
is determined whether they have legitimate asylum claims.
    This crucial requirement is designed to prevent aliens from 
being released into our communities and then disappearing into 
the shadows. The detention standard was enacted precisely 
because large numbers of arriving aliens were absconding after 
claiming asylum and being released.
    Under the statute and corresponding regulations, under 
limited circumstances, parole from detention is available to 
meet a medical emergency or if it is a necessary for a 
legitimate law enforcement objective. However, these standards 
have been watered down by the current Administration via 
executive fiat. A December 8, 2009, policy directive issued by 
former ICE Director Morton provides that any arriving alien who 
has been found to have a credible fear and can establish 
identity and argue that they are not a flight risk or a danger 
to the community should be released by ICE.
    This is inconsistent with the statute that requires 
detention except in very limited circumstances. And not 
surprisingly, the timing of this memo appears to correlate with 
the uptick of credible fear claims in recent years.
    As a result of these lax detention standards and ease of 
being found to have a credible fear, claims have increased 
dramatically in recent years. The stellar efforts of our Border 
Patrol agents are in vain if the aliens they apprehend are 
simply released into our communities. Once released, many of 
these aliens, particularly those with meager or invented claims 
of asylum, simply melt into the population.
    Critics allege that the purpose is not to obtain asylum, 
but rather to game the system by getting a free pass into the 
United States and a court date for which they do not plan to 
show up. Accounts indicate that aliens being coached in the 
asylum process and that aliens are being taught to use certain 
terms to ensure that they have--that they are found to have a 
credible fear. According to critics, many of these claims are 
often an orchestrated sham.
    In addition to this alarming trend, the House Judiciary 
Committee recently obtained an internal CBP memo that states 
many people claiming a credible fear of persecution at our 
ports of entry have a direct or indirect association with drug 
trafficking and other illegal activity, such as human 
smuggling. Since there are intelligence gaps and loopholes in 
the system, the asylum process is often being abused by 
individuals who would otherwise be subjects of interest or 
subjects of criminal investigations.
    Once these unscrupulous individuals falsely claim a 
credible fear of persecution, there is virtually no 
investigation by U.S. authorities. Because the Obama 
administration refuses to detain most of them, criminals and 
those who pose national security threats are then able to live 
and work in the U.S. for many years before their cases are ever 
heard by immigration judges.
    Ultimately, the Administration is demonstrating its 
inability and lack of desire to enforce the law. The threat of 
infiltration by criminal elements and cartels is putting the 
American public at risk. These decisions are neither prudent 
nor wise. To make matters worse, they undermine the confidence 
in a secure border necessary to develop a common sense, step-
by-step approach to improving our immigration laws.
    I look forward to getting to the bottom of this disturbing 
problem today, and it is now my pleasure to recognize the 
Ranking Member of the Immigration and Claims Border Security 
Subcommittee, the gentlewoman from California, Ms. Lofgren, for 
her opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Five years ago, I became part of an increasingly rare 
process in the House of Representatives. A large bipartisan 
group of lawmakers met once or twice a week, sometimes more 
often, to try and devise a plan to fix our broken immigration 
system. And although the process went on hiatus for much of the 
last Congress, we renewed our efforts last fall and worked hard 
until just a few months ago when several Republicans in the 
group, for whom I have a great deal of respect, announced their 
departure from the group.
    That process may not have borne fruit, not yet at least, 
but at least it was something. I am afraid that when it comes 
to immigration, the work this Committee has done over the past 
year has not moved the ball forward. Hope springs eternal, 
however. And when I return for the next session in January, I 
will come ready to work.
    But back to today's topic. Before I address the question 
put to us by the title of this hearing, I think it is important 
to review how our current expedited removal and credible fear 
processes came about and what they are.
    In 1996, Congress enacted the Illegal Immigration Reform 
and Immigrant Responsibility Act. I voted against the bill in 
committee. I voted against it on the floor, and I voted against 
it when it came out of conference. I believed then, as now, 
that the bill was a mean-spirited bill that would do drastic 
damage to immigrants and our immigration system.
    And one of the most pernicious aspects of that law was the 
creation of expedited removal, which allows people apprehended 
at our ports, along the borders, and in some cases, in the 
interior, to be deported with little due process.
    As Congress recognized at that time, expedited removal 
posed the real danger that bona fide asylum seekers would be 
summarily removed from the country to face persecution and 
torture abroad. In an effort to prevent that unacceptable 
outcome, the law required that every person subject to 
expedited removal be screened to determine whether they 
expressed a fear of returning to their home country.
    If so, the law required that except in very limited 
circumstances, they be detained until a trained asylum officer 
could interview them and determine whether or not they 
possessed a credible fear of persecution. We defined ``credible 
fear'' at that time to mean that there is a ``significant 
possibility, taking into account the credibility of the 
statements made by the alien in support of the alien's claim 
and such other facts as are known to the officer, that the 
alien could establish eligibility for asylum.''
    This is a lower standard than the ``well-founded'' fear 
standard that applies to a final decision on the merits of an 
asylum claim, and that was our intention. We understood that it 
can be nearly impossible to demonstrate a well-founded fear of 
persecution just days after arriving in the country, and 
setting the bar too high would lead to unconscionable results.
    After the bill became law, we heard a wave of complaints 
regarding the effect that expedited removal was having on 
asylum seekers. And just 2 years later, Congress enacted the 
International Religious Freedom Act of 1998, and we established 
the U.S. Commission on International Religious Freedom, an 
independent body whose commissioners are appointed by the 
President and congressional leadership of both parties.
    In that very first authorizing statute, Congress asked the 
Commission to study the impact of expedited removal on people 
fleeing persecution. The Commission issued its study in 2005 
and concluded that because of expedited removal ``and its 
serious flaws, the United States' tradition of protecting 
asylum seekers--not to mention those asylum seekers' lives--
continues to be at risk.''
    One of the most striking findings had to do with ICE's 
practice of paroling people out of detention. Policy guidance 
clearly authorized parole after an applicant had demonstrated a 
credible fear, had also established his or her identity, had 
also showed that he or she posed neither a flight risk nor a 
danger to the community.
    But while one ICE field office paroled 97.7 percent of 
applicants, another paroled just 0.5 percent. So it was 
recommended by the Commission that the issuance of regulations 
be undertaken to promote consistency.
    Now I want to turn to the question of today's hearing, 
``Asylum Abuse: Is it Overwhelming our Borders?'' Let us 
analyze that.
    First, are our borders overwhelmed? By historical measures, 
the answer is clearly no. Although we have seen an increase in 
attempted border crossings along our Southwest border over the 
past 2 years, this is an increase from what appears to be a 40-
year low just 2 years ago.
    And given the increases we have made in manpower and 
infrastructure at the border, there is no way to argue that 
they are more overwhelmed today than they have been for much of 
our recent history.
    Second, are some parts of our border overwhelmed? I hope to 
learn more about that today. But there is no question that we 
have seen a sharp increase in people expressing the fear of 
being returned to their home countries. There were 5,369 claims 
of credible fear in fiscal year 2009; more than double that 
number, 13,880, in fiscal year 2012; and nearly triple that 
number, 36,035, in this past fiscal year.
    Still, to keep things in perspective, only a small fraction 
of the people apprehended at and between our ports express such 
fear, and the overwhelming majority of people subject to 
expedited removal are removed from the country in a short 
period of time.
    So the final part of the question is whether the recent 
increase is a result of asylum abuse? And the truth is we don't 
know yet. We can't yet know. The cases that are driving the 
increase in fiscal year 2013 have largely not yet been 
adjudicated by the immigration courts.
    As this Committee has documented time and time again, the 
case backlog in our courts, caused primarily by inadequate 
investment in new judges, support personnel, and facilities, is 
preventing cases from being resolved in an acceptable 
timeframe. We do know a few things, however.
    The increase in credible fear claims is being driven by 
people from Central America. Sixty-five percent of the claims 
in fiscal year 2013 came from Guatemala, Honduras, and El 
Salvador. Although claims by Mexicans have increased, Mexicans 
still make up only 7 percent of all credible fear claims.
    Also, more than three-quarters of the claims are coming 
from people apprehended between the ports, not at the ports. 
Since people apprehended between the ports are not eligible for 
parole under the parole directive issued by ICE in 2009, this 
provides strong evidence that the directive itself is not 
drawing people to come here.
    Something is, in fact, going on. The number of people 
claiming credible fear of persecution or torture definitely 
increased in the last 2 years. But whether that is the result 
of better fear screenings, efforts to defraud the system, or a 
brewing refugee crisis in the Western Hemisphere is something 
we still need to explore. Prejudging that question, I believe, 
is dangerous and unwise.
    I look forward to learning from our witnesses, and I thank 
each of them for appearing today, and I yield back, Mr. 
Chairman.
    Mr. Goodlatte. The Chair thanks the gentlewoman and is now 
pleased to recognize the Chairman of the Subcommittee on 
Immigration and Border Security, Mr. Gowdy of South Carolina, 
for his opening statement.
    Mr. Gowdy. Thank you, Mr. Chairman.
    I want to thank you for your work on this issue, and I want 
to yield my time to my friend from Utah, Mr. Jason Chaffetz, 
who has done remarkable work on this issue, both on Judiciary 
and Oversight and Government Reform.
    Mr. Chaffetz?
    Mr. Chaffetz. I thank the Chairman. I thank you, Mr. Gowdy 
and Chairman Goodlatte, for allowing this hearing to happen. 
This is a problem, and it is an abuse, and I am glad we are 
addressing it.
    Today, we are going to examine the threats to our Nation's 
border caused by the abuse of the credible fear process. In a 
reflection of the Obama administration's undermining of the 
enforcement of our immigration laws, these credible fear 
claimants almost always get approved and are released into our 
communities.
    As a result, the integrity of our immigration system is 
compromised, and potential threats to our communities and 
national security are able to legally live and work here. When 
their asylum claims are ultimately denied, they simply add to 
the fugitive population here in the United States. This is all 
the more troubling because we have received reports that 
Mexican drug cartel members are abusing the credible fear 
process to bypass regular immigration checks in order get into 
the country.
    Thereafter, they expand their human and drug smuggling 
operations in the United States, and once here, some of these 
cartel members even engage in the same violent feuds that 
supposedly caused them to flee Mexico in the first place. DHS 
has confirmed some of these reports but has refused to provide 
us with the documentation they admit exists that details them.
    According to reports, cases show that two women made claims 
of asylum utilizing credible fear process, and 3 months later 
were apprehended at the Border Patrol checkpoint with more than 
$1 million in cocaine. One of the women was allegedly married 
to a cartel boss.
    Information provided by DHS also details cartel hit squad 
members who entered the United States after claiming they 
feared violence when they fell out of grace with their 
employers. And yet in another case two families involved in 
drug trafficking came to the United States, claiming credible 
fear of persecution, then began targeting each other once they 
were here. It is outrageous that dangerous criminals are gaming 
the system by claiming they have a credible fear of persecution 
when often they have been the perpetrators of violence 
themselves.
    To make matters worse, the availability of heroin and 
methamphetamine in the United States is on the rise due in part 
to an ever-evolving entrepreneurial spirit of the Mexican drug 
cartels, according to a new study released by the DEA. 
According to this report, the amount of heroin seized at the 
southern U.S. border has increased 232 percent between 2008 and 
2012, apparently as the result of greater Mexican heroin 
production and growing incursion by Mexican drug traffickers 
into the United States market.
    Homeland security officials claim they screen everyone who 
makes a credible fear claim and try to identify and detain 
those who could be dangerous to the community. Clearly, 
whatever they are doing, it is ineffective. And as Chairman 
Goodlatte explained, it might be more effective if they adhered 
to the actual statute and not legislated from the executive 
branch.
    It seems amazing to me that the Department of Homeland 
Security has not apparently sought to determine, one, why 
credible fear claims have risen from about 5,000 in 2008 to 
almost 36,000 in 2013 or, two, why the rate that USCIS finds 
aliens have established credible fear currently is at almost 92 
percent. Ninety-two percent are getting a rubberstamp. They are 
getting the golden ticket to come to the United States of 
America.
    What can be done administratively or statutorily to address 
this ongoing and escalating abuse to our system? While DHS has 
not yet provided insight into the causes or potential 
resolution of the crisis surrounding the level of credible fear 
applications, there are likely culprits.
    The low threshold for establishing a credible fear, ICE's 
recent liberalization of the ``mandatory detention policy for 
inadmissible aliens'' who meet this low threshold, inadequate 
training for asylum officers, and institutional incentives to 
approve applications, something I am deeply concerned about--
many of these abuses could be halted by the Administration 
itself.
    If word got out that bogus credible fear claims were not 
being rubberstamped and the claimants rewarded with almost 
certain release into the United States and work authorization, 
the vast increase in claims would quickly abate.
    However, if the Administration is not willing to take these 
steps, I am prepared to pursue necessary legislation to do the 
same. In the end, it doesn't matter how many aliens are 
apprehended along the border if apprehension itself becomes the 
golden ticket to the country.
    When I visited Phoenix with Mr. Bentivolio and I went to 
the ICE office, we talked about the number of credible fear 
claims that were happening in the region. If you claim asylum 
in the Phoenix office and they assign you a court date, the 
court date you are going to get right now is in 2020. In the 
meantime, you are going to get free education, free healthcare, 
and you are probably going to get a work permit.
    That is not right, Mr. Chairman. I am glad you are holding 
this hearing today. I appreciate the time, and I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and is now 
pleased to recognize and welcome back the Ranking Member of the 
Judiciary Committee, who has been on a mission to help our 
country pay our respects to the people of South Africa and in 
memory of a great international leader and fighter for freedom, 
Nelson Mandela.
    And I will have another comment after your remarks. So I am 
happy to recognize the gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    And we have a couple of our other Members that were on that 
memorial trip with me, and we are very happy to be back and 
with the Committee.
    Now last month, I observed that the very first hearing this 
Committee held in the 113th Congress was the need for 
immigration reform. It made sense. One day after the election, 
the Speaker of the House, Mr. Boehner, called for a 
``comprehensive approach'' to immigration reform, as he said 
it, ``long overdue.''
    A few months later, the Republican National Committee 
recognized that the party ``must embrace and champion 
comprehensive immigration reform.'' And I agree with both 
statements.
    So here we are on the last full day of the first session of 
the 113th Congress, and so far, we have yet to see any real, 
decisive action in the House. Yes, we have had 14 hearings on 
the issue, considered 4 bills, each one less effective than the 
one before it, in Committee. But even in Committee, we have yet 
to consider critical parts to reform.
    We have seen no bill for the Dreamers. We have seen no bill 
providing a way for the 11 million people living in our 
communities, working in our fields and factories, attending our 
churches and schools to get right with the law and earn 
citizenship. They are still in the shadows.
    In fact, the only bill pending in the House that does these 
things is H.R. 15, which currently has 193 cosponsors.
    Throughout the year, I have been moved by the presence of 
immigrant children, Dreamers, who have attended our hearings, 
visited our offices, and held events of their own around the 
country.
    I have listened to faith leaders, business leaders, labor 
leaders explain the fierce urgency of enacting common sense 
immigration reform. And for the past month, just steps from 
where we sit today, advocates for immigration reform have 
abstained from all food for weeks on end in order to keep the 
Nation's hunger for immigration reform at the forefront of our 
work here in Washington.
    And despite all of that, our final hearing for 2013 is yet 
another hearing that will leave the impression that when 
Republicans on this Committee think of immigrants, they think 
first of criminals or fraudsters or gang members.
    The issue we will address today is not unimportant. We know 
that the number of people seeking asylum at our borders has 
increased over the last 2 years. In some places, the increase 
has been quite dramatic. It is important that we figure out why 
this is happening because only after we do that we can figure 
out how to deal with it in a responsible way.
    But that is not all we have to do. Fixing our broken 
immigration system still lies ahead for the House. All year 
long, the majority has said that they want to take their time 
to do things right and approach immigration reform one piece at 
a time.
    Now I agree that we should be deliberative, but let us not 
fool ourselves. This issue isn't new. We have been working to 
fix our broken system for over a decade now. The debates we are 
having in this Committee are debates we had going back as far 
as 1996, and then in 2005, and then throughout the last 
Congress, the 112th.
    And we know that this much is true. Families, businesses, 
and communities all around this country are counting on us to 
do a lot more in 2014 than just hold another 14 hearings.
    And so, I stand ready to do the work that needs to be done. 
Let us begin the second session by bringing up H.R. 15. And if 
not, let us consider some of the Republican bills that I 
understand may be the works. Let us just do something. Because 
doing nothing is no more an option for us than it is for the 
families that are being torn apart each and every day.
    And I thank the Chairman, and I yield back any time that 
may be remaining.
    Mr. Goodlatte. The Chair thanks the gentleman. In fact, the 
Chair wants to take this opportunity on the occasion of our 
last hearing of this year and the first session of this 
Congress to thank all the Members for the hard work they have 
put into this Committee.
    The Committee has held a total of 16 full Committee 
hearings, 48 Subcommittee hearings, has passed 26 bills through 
the Committee and 27 bills through the House. Now you may 
wonder how we could pass 26 through the Committee and 27 
through the House. The reason for that is there are a few, a 
small number of bills that went directly to the floor without 
Committee consideration and several others that the Committee 
shares jurisdiction with other Committees.
    But that is a record of accomplishment. And to the point 
raised by the gentleman from Michigan, the Committee will in 
the new year continue work in a very deliberative manner, but a 
very serious manner understanding that immigration reform is 
needed, and it will be a top priority.
    So I would encourage the Members to take the fact that we 
are holding the final hearing of the year on this subject as a 
sign of continued work, but also as a sign that we continue to 
learn of new problems that need to be addressed, including, 
unfortunately, the leaked memo which displays that the 
Administration knew far more about the nature of this problem 
and how it relates to criminal drug enterprises and, therefore, 
needs to be addressed as a part of our effort to do immigration 
reform and cover all aspects of immigration reform, including 
enforcement, appropriate legal immigration reforms, and finding 
the appropriate legal status for those who are not here 
lawfully today.
    So, with that, I will ask unanimous consent to enter into 
the record the following items: Immigration and Customs 
Enforcement memo, entitled Parole of Arriving Aliens Found To 
Have a Credible Fear of Persecution or Torture; USCIS Asylum 
Division data through fiscal year 2013; and a news article 
indicating that Border Patrol agents are being ordered to stand 
down when encountering drug smugglers, human smugglers, and 
traffickers.
    Without objection, those will be made a part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Goodlatte. And at this time, we will turn to our 
witnesses. We are very delighted to have all of our witnesses 
here today. And if you would all rise, I will begin by swearing 
you in.
    [Witnesses sworn.]
    Mr. Goodlatte. Let the record reflect that all of the 
witnesses responded in the affirmative.
    Thank you, and I will begin to introduce our witnesses. 
Please be seated.
    Ms. Lori Scialabba, currently serves as the Deputy Director 
of U.S. Citizenship and Immigration Services, a position that 
she has held since May of 2011. Prior to being appointed Deputy 
Director, she served as the Associate Director of Refugee, 
Asylum, and International Operations.
    Prior to joining the Department of Homeland Security, Ms. 
Scialabba served as chairman of the board of immigration 
appeals in the Executive Office for Immigration Review and the 
Department of Justice. She received her bachelor's degree in 
1982 from the University of Maryland and her juris doctorate in 
1985 from Memphis State University.
    Mr. Daniel H. Ragsdale currently serves as the Deputy 
Director for Immigration and Customs Enforcement, the principal 
investigative agency of the Department of Homeland Security. In 
this capacity, he also serves as the agency's chief management 
officer, overseeing the Office of Management and 
Administration.
    Mr. Ragsdale joined the former U.S. Immigration and 
Naturalization Service's General Counsel Office in 1996 and 
served as an attorney in New York, New York, as well as Tucson 
and Phoenix, Arizona. He received an undergraduate degree from 
Franklin and Marshall College and a J.D. from Fordham 
University School of Law.
    Mr. Michael J. Fisher is the Chief of the U.S. Border 
Patrol and a member of the Senior Executive Service. In this 
role, he is responsible for planning, organizing, coordinating, 
and directing enforcement efforts designed to secure our 
Nation's borders. Chief Fisher entered on duty with the U.S. 
Border Patrol in June 1987 as a member of Class 208. His first 
duty assignment as a Border Patrol agent was at the Douglas 
Station in the Tucson sector.
    Chief Fisher earned a bachelor's degree in criminal justice 
and a master's degree in business administration. He is also a 
graduate of the Senior Executive Fellows Program at the John F. 
Kennedy School of Government at Harvard University.
    Ms. Ruth Wasem is the specialist in immigration policy at 
the Congressional Research Service, U.S. Library of Congress. 
In this capacity, she has researched, written, and presented 
for the U.S. Congress on immigration and social welfare 
policies.
    She is also an adjunct professor of public policy at the 
Lyndon B. Johnson School of Public Affairs, University of 
Texas, where she teaches graduate courses on immigration 
policy. Ms. Wasem earned her master's and doctorate degrees in 
history at the University of Michigan and received her 
baccalaureate degree from Muskingum University.
    Each of the witnesses' written statements will be entered 
into the record in its entirety, and I ask that each witness 
summarize his or her testimony in 5 minutes or less. To help 
you stay within that time, there is a timing light on the 
table.
    When the light switches from green to yellow, you will have 
1 minute to conclude your testimony. When the light turns red, 
it signals that the witness' 5 minutes have expired.
    Welcome again to all of you. And Ms. Scialabba--oh, I am 
sorry. We are going to go first to Mr. Fisher.

         TESTIMONY OF MICHAEL J. FISHER, CHIEF OF THE 
         U.S. BORDER PATROL, CUSTOMS AND BORDER PATROL

    Mr. Fisher. Chairman Goodlatte, Ranking Member Conyers, 
distinguished Members of the Committee, it is a privilege and, 
indeed, an honor to appear before you today to discuss U.S. 
Customs and Border Protection's efforts to secure the borders.
    As this Committee is aware, the mission of the United 
States Border Patrol is to reduce the likelihood of attack to 
the United States while providing safety and security to its 
citizens against dangerous people seeking entry into the United 
States to do us harm.
    In the process of fulfilling this mission obligation, we 
employ a risk-based approach. Simply stated, we assess threats 
and vulnerabilities in order to deploy our greatest 
capabilities and resources against the highest risk. We execute 
this mission in a number of ways, not the least of which is 
through the predominant use of information and intelligence.
    It was one of these field intelligence reports that was the 
focus of an article that appeared in the Washington Times last 
month, describing a potential emerging threat and vulnerability 
surrounding the credible fear process. The report was authored 
by the Unified Command within the Alliance to Combat 
Transnational Threats, also called the ACTT, in El Paso, Texas.
    The ACTT has been in existence for a few years and is 
designed and structured to foster integrated operations. ACTT 
members include Federal, State, and local stakeholders from a 
number of sectors, the majority being law enforcement. As with 
most field intelligence reports, the dissemination within the 
ACTT community was wide, as designed, and labeled for official 
use only.
    This is common practice to not only protect sources and 
methods, but to preserve the interagency information in the 
event of criminal prosecution, which, in many cases, is the 
desired end state. It is too early for me to assess either the 
potential emerging threat or vulnerability from the single 
report. However, as we continue to collect against the illicit 
networks, as well as the identified intelligence gaps described 
in the report, and as we broaden our analytical effort, we will 
be--we will be in a better position to assess both.
    Chairman Goodlatte, Ranking Member Conyers, and again, 
distinguished Members of this Committee, thank you for the 
opportunity to testify today. I look forward to answering your 
questions.
    Mr. Goodlatte. Thank you, Mr. Fisher.
    Now we will turn to Ms. Scialabba.
                              ----------                              


         TESTIMONY OF LORI SCIALABBA, DEPUTY DIRECTOR, 
           U.S. CITIZENSHIP AND IMMIGRATION SERVICES

    Ms. Scialabba. Thank you, Chairman Goodlatte, Ranking 
Member Conyers, and distinguished Members of the Judiciary 
Committee----
    Mr. Goodlatte. You may want to pull the microphone a little 
closer to you.
    Ms. Scialabba. Oh, sure. It makes my eyes cross. 
[Laughter.]
    Mr. Goodlatte. Sorry.
    Ms. Scialabba. Thank you for the opportunity to testify at 
today's hearing, alongside with my colleagues from Customs and 
Border Protection and Immigration and Customs Enforcement.
    As you mentioned, I'm Lori Scialabba, Deputy Director of 
U.S. Citizenship and Immigration Services, and my testimony 
today will focus on how USCIS supports U.S. efforts related to 
border security while upholding our refugee protection 
obligations.
    The United States has a long and proud history of providing 
humanitarian protection. We are signatories to the 1967 
protocol relating to the status of refugees, which bars 
contracting states from returning refugees to their countries 
of feared persecution.
    Our obligations under the protocol are primarily 
implemented through our Nation's asylum process, which involves 
proceedings under two tracks, one in which an individual 
applies for asylum affirmatively with a USCIS asylum officer 
and the other in which an individual seeks asylum before an 
immigration judge with the Department of Justice. At the 
borders, individuals who wish to apply for asylum are initially 
processed through the expedited removal program, which will be 
the subject of the remainder of my testimony.
    Prior to the enactment of the Illegal Immigration Reform 
and Immigrant Responsibility Act of 1996, all individuals 
apprehended attempting to enter the United States unlawfully 
were placed in full proceedings before an immigration judge. 
These proceedings were time consuming and resource intensive. 
Individuals in such proceedings were generally not detained.
    The 1996 reforms allowed for the expedited removal of 
individuals seeking admission at air, land, and sea ports of 
entry without proper documentation. In 2004, the Department of 
Homeland Security implemented regulations expanding expedited 
removal to apply to individuals apprehended close to a U.S. 
border shortly after an illegal entry.
    All individuals placed in expedited removal proceedings are 
subject to mandatory detention and prompt return to their 
countries of origin. In creating this new removal process, 
however, Congress was mindful of the United States treaty 
obligations relating to the status of refugees and created a 
screening process known as credible fear to prevent persons 
from being returned to a country in which they would be 
persecuted or tortured.
    The USCIS Asylum Division administers the credible fear 
program. The credible fear screening is the third stage of the 
expedited removal process for individuals who express a fear of 
return or indicate an intention to apply for asylum. They are 
first encountered and placed into expedited removal by CBP. 
They are then detained by ICE, pending their credible fear 
interviews.
    USCIS is the third agency to encounter the individual in 
the expedited removal process. USCIS conducts a credible fear 
interview to determine whether there is a significant 
possibility that the individual will be found eligible for 
asylum or withholding of removal. This determination does not 
confer any immigration benefit. It is simply a screening 
process employed.
    The final decision on asylum eligibility rests with an 
immigration judge. Credible fear interviews are conducted by a 
USCIS asylum officer while the individual is detained by ICE. 
Asylum officers comprise a professional cadre within USCIS, 
dedicated full time to the adjudication and screening of 
protection claims. They are extensively trained in national 
security issues, the security and law enforcement background 
check process, eligibility criteria, country conditions, 
interview techniques, making proper credibility determinations, 
and fraud detection.
    During the credible fear interview, individuals are 
questioned regarding their biographic information, their fear 
of persecution or torture, and whether there are concerns that 
may make them ineligible for asylum.
    USCIS conducts security checks, including biographic and 
biometric checks. USCIS coordinates with ICE and other law 
enforcement authorities as appropriate if there are reasonable 
grounds to believe that an individual may have engaged in 
criminal activity or is a security risk.
    While information relating to asylum seekers is sensitive 
and generally protected from disclosure, regulations and 
policies allow for USCIS to share information with law 
enforcement agencies for investigative and intelligence 
purposes, which is done routinely. As CBP and ICE have already 
encountered the individual early in the expedited removal 
process, they have also already conducted security checks on 
the individual. ICE relies on its security checks to inform any 
decision to release the individual from custody.
    If USCIS determines the individual does have a credible 
fear, he or she is subject to removal--does not have a credible 
fear, he or she is subject to immediate removal unless the 
individual requests a limited review of USCIS's credible fear 
finding by an immigration judge. And an immigration judge can 
overrule our decision. If the immigration judge agrees with the 
USCIS that the individual does not have a credible fear, then 
the individual is removed.
    And I see my time is almost up. So I will thank you for the 
opportunity.
    Mr. Goodlatte. Thank you.
    Mr. Ragsdale, welcome.
                              ----------                              


 TESTIMONY OF DANIEL H. RAGSDALE, DEPUTY DIRECTOR, IMMIGRATION 
                    AND CUSTOMS ENFORCEMENT

    Mr. Ragsdale. Good morning. Chairman Goodlatte, Ranking 
Member Conyers, and distinguished Members of the Committee, on 
behalf of the men and women of the U.S. Immigration and Customs 
Enforcement, thank you for the opportunity to appear today to 
discuss the role ICE plays in protecting border security.
    ICE's primary mission is to promote homeland security and 
the public safety through the criminal and civil enforcement of 
the Federal laws governing border control, customs, trade, and 
immigration. ICE is the principal investigative arm of the 
Department of Homeland Security.
    ICE has two primary operating components, the Office of 
Homeland Security Investigation and the Office of Enforcement 
and Removal Operations. ERO's primary role is to enforce our 
Nation's immigration laws in a way that impacts public safety 
and border security. HSI is responsible for investigating and 
referring for criminal prosecution crimes related to human 
smuggling, trafficking, narcotics and weapons smuggling, 
counterproliferation, commercial fraud, child exploitation, 
among others.
    ICE also relies on a team of nearly 1,000 attorneys to 
fulfill its civil and criminal enforcement missions. In 
addition, ICE's Office of Professional Responsibility promote 
security and the integrity of ICE's workforce through 
investigating allegations of misconduct.
    Over the past 4 years, ICE has focused its resources on the 
rule of individuals who fit within our enforcement priorities. 
These priorities include people who are risks to national 
security, public safety, such as convicted criminals, recent 
illegal border crossers, and those who have struck immigration 
controls.
    Through this focus, ICE has been able to help ensure our 
public safety and seen solid success in enforcing this Nation's 
immigration laws. These successes could not be achieved without 
the implementation of smart, effective, and efficient policies 
and our close working relationship with our DHS partners in 
order to meet our goals.
    For instance, 44 percent of the ICE detainees in our 
custody came from CBP. Our joint efforts are critical to the 
Nation's border security. As discussed by ICE's partners in 
their statements, individuals who are apprehended while 
attempting to unlawfully enter the United States and who 
indicate a fear of persecution or torture and an intent to 
apply for asylum are detained by ICE until they can present 
their claim to a specially trained USCIS asylum officer, who 
conducts a detailed screening for potential asylum eligibility.
    In December 2009, former Director John Morton issued a 
revised directive on the parole of arriving aliens found to 
have a credible fear of persecution or torture to ensure 
transparent and consistent parole determinations for arriving 
aliens seeking protection in the United States. Under this 
policy, aliens who arrive in the United States at a port of 
entry and who are found to have a credible fear of persecution 
or torture are considered for parole.
    While our procedures reflect the sound public policy 
position of favoring parole in positive credibility of fear 
cases, ICE takes its law enforcement responsibilities seriously 
and carefully considers each and every parole decision and 
balances with a need to protect public safety.
    As tactical requirements ebb and flow, we have redoubled 
our efforts to be nimble and collaborative as we respond to 
changing operational needs. We have put policies and 
infrastructure in place to do just that.
    For example, ICE targets and investigates the most 
dangerous transnational human smuggling organizations through 
the Illicit Pathways Attack Strategy, or IPAS. ICE designed 
this program to build, balance, integrate its authorities and 
resources, both foreign and domestic, in a focused, 
comprehensive manner to target, disrupt, and dismantle 
transnational organized crime.
    In fiscal year 2013 alone, to address the crime of human 
smuggling and the additional threat it brings to border 
security, ICE arrested approximately 2,700 alien smugglers, 
obtained indictments and convictions against 3,600 individuals, 
and initiated almost 2,000 smuggling investigations.
    In addition to combating transnational human smuggling 
organizations, we also target individuals and organizations who 
attempt to gain legal status in the United States through 
fraudulent means or identity theft. To combat these criminal 
threats, ICE has established 19 document and benefit fraud task 
forces throughout the U.S.
    As a result of these task forces, combined with our 
investigative efforts, in fiscal year 2013, we made over 1,500 
criminal arrests for immigration fraud, identity theft, an 
increase of approximately 20 percent since 2009.
    In sum, ICE remains committed to a detention policy that 
ensures violent priority aliens remain in custody while 
managing limited resources by providing effective alternatives 
for nonpriority aliens, commensurate with the risk they 
present. Current parole procedures for asylum seekers help ICE 
making custody determinations on a case-by-case basis while 
focusing both on protecting against threats to public safety 
and maintaining control of the Nation's borders.
    Thank you for the opportunity to testify, and I look 
forward to the questions you may have.
    [The joint prepared statement of the U.S. Department of 
Homeland Security follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Goodlatte. Thank you, Mr. Ragsdale.
    Ms. Wasem, welcome.

   TESTIMONY OF RUTH ELLEN WASEM, SPECIALIST IN IMMIGRATION 
             POLICY, CONGRESSIONAL RESEARCH SERVICE

    Ms. Wasem. Thank you.
    Chairman Goodlatte, Ranking Member Conyers, and 
distinguished Members of the Judiciary Committee, I am honored 
to be testifying this morning on behalf of the Congressional 
Research Service.
    My summary will provide a backdrop on your basic question: 
Is asylum abuse overwhelming our borders? In summation, there 
are three avenues--I'll reiterate a bit of what Lori had 
testified on--three avenues to receive asylum.
    The first avenue is the affirmative, when a foreign 
national who is in the United States and not involved in any 
removal proceeding applies for asylum with a USCIS immigration 
officer. The second route, a defensive application is when a 
foreign national is in removal proceedings and asserts a claim 
for asylum as a defense to that removal proceeding before an 
immigration judge. And the third avenue, which is the principal 
topic of this morning's hearing, is the credible fear review, 
which is triggered when a foreign national arriving without 
proper documentation is placed in expedited removal and 
expresses a fear of persecution.
    In this last instance, the foreign national is then put in 
the second path I mentioned, the defensive path, and goes 
before an immigration judge. In all of these instances, to be 
eligible for asylum, the foreign national must demonstrate a 
well-founded fear of persecution that if returned home, they 
will be persecuted based upon one of five characteristics--
race, religion, nationality, membership in a particular social 
group, or political opinion.
    The credible fear threshold is--means that there is a 
significant possibility that the foreign national could 
establish eligibility for asylum under one of those five 
enumerated grounds I just listed.
    These avenues and the standards for asylum are based on a 
substantial legislative history, three I want to mention. The 
Refugee Act of 1980, which codified the definition from the 
Refugee Protocol of 1967 in the Immigration Act.
    Secondly, the Illegal Immigrant Reform and Immigrant 
Responsibility Act of 1996, which made substantial changes to 
the asylum process. And among the most significant of those 
changes are the provisions which created expedited removal and 
added the credible fear review process. The '96 law also 
requires mandatory detention of foreign nationals in expedited 
removal while they seek their credible fear determination.
    Thirdly, the REAL ID Act of 2005, which established express 
standards for proof for asylum seekers.
    Now I'm going to turn to some--a brief summary of some of 
the statistical trends that I found in preparing this 
testimony. Three points. Overall, asylum trends are down. 
Credible fear claims are up. And a handful of countries are 
driving these increases.
    Let's look at Figure 1, where you can see that since the 
mid '90's, both the affirmative and the defensive asylum claims 
have decreased. There was a slight increase since 2010, but the 
numbers have not yet reached the levels of the earlier years.
    As you can also see from Figure 1 in my testimony, the 
number of asylum cases approved has remained rather steady, 
except for an uptick in the early part of this century. 
Otherwise, the number of cases approved by both the immigration 
judges and the asylum officers and USCIS remains relatively the 
same.
    This next chart, of course, is where you see the big surge. 
Since--in the past year, since 2013, there has been a more than 
doubling of individuals expressing credible fear during 
expedited removal.
    Figure 7 reveals that a handful of countries are driving 
this increase. El Salvador, Guatemala, and Honduras, and to a 
lesser extent, Mexico, India, and Ecuador. All but India are 
Western Hemisphere countries. This trend is similar when you 
look at the acceptance of the credible fear cases.
    Let me conclude by making this observation. An increase in 
asylum or credible fear claims, in and of itself, does not 
signify an increase in abuse of the asylum process any more 
than a reduction in asylum claims in credible fear would 
signify a reduction in abuse. While the current levels of 
asylum and credible fear do not yet approach that of two 
decades ago, the question for today is whether they have risen 
to a level that might strain the system that is designed to 
both protect refugees and control our borders.
    I'm happy to answer your questions.
    [The prepared statement of Ms. Wasem follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. Thank you, Ms. Wasem.
    We will now begin questioning. Mr. Ragsdale, this appears 
to be creating a sense of deja vu with regard to many of us. 
Under the Department of Homeland Security Secretary Chertoff, 
catch and release became notorious. This was the name of the 
DHS practice of apprehending non-Mexican aliens along the 
southern border, giving them a notice to appear in immigration 
court, and releasing them into the United States.
    Secretary Chertoff complained that, ``When a non-Mexican is 
caught trying to enter the U.S. across the Southwest border 
today, he has an 80 percent chance of being released 
immediately because we have nowhere to hold him. Of course, he 
will be charged as an immigration law violator, and he will 
likely fail to appear at his immigration hearings.''
    Chertoff then announced a plan to end catch and release 
once and for all. He stated that, ``When a large number of 
Brazilians began illegally crossing the Southwest border, we 
responded in July 2005 with 'Operation Texas Hold 'Em.' We 
prioritized the existing space, dedicated bed space, and began 
detaining and removing all of the illegal Brazilians we 
apprehended.
    ``The word spread surprisingly swiftly. Within the first 30 
days, the operation had already begun to deter illegal border 
crossings by Brazilians. In fact, the number of Brazilians 
apprehended dropped by 50 percent. After 60 days, the rate of 
Brazilian illegal immigration through this sector was down 90 
percent, and it is still significantly depressed all across the 
border.
    ``In short, we learned that a concentrated effort of 
removal can actually discourage illegal entries by non-Mexicans 
on the Southwest border.''
    This seems to me to be the solution to the credible fear 
crisis. Why doesn't DHS simply utilize Secretary Chertoff's 
strategy, eliminate the incentive to make an abuse of credible 
fear claim, and end this growing problem?
    Mr. Ragsdale. Thank you for the opportunity to answer that 
question.
    I was actually an attorney in Arizona during that--the 
Brazilian initiative, and I was part of the litigation strategy 
before the Executive Office for Immigration Review that worked 
successfully there. I was also detailed to the department in 
2005 and '04 to work on the Secure Border Initiative team with 
the former Secretary and came up with that strategy.
    Mr. Goodlatte. It seems like it would be a good one. Why 
aren't we doing it now?
    Mr. Ragsdale. Well, we actually are doing it now. We're 
doing it actually in what I'd say is a very smart way. The 
difference that we see today is if you look at the ICE 
detention capacity, we are making smart decisions to detain 
criminal aliens first.
    Mr. Goodlatte. Sir, the problem is one not just of criminal 
aliens, but of people who are making false claims simply to 
enter the United States. And Secretary Chertoff did not make 
that distinction. They detained every Brazilian.
    We just heard from Ms. Wasem that El Salvador, Guatemala, 
and Honduras have the highest numbers of these credible fear 
claims, and it would seem to me extremely appropriate to 
identify people who are apprehended from those countries making 
credible fear claims, of detaining all of them so that there is 
not this problem. And word gets back to those countries, as it 
did back to Brazil, if you try this, it is not going to work.
    That would be the thing that would drive down asylum 
claims, as it did. And now they are back up, as you can see, 
and growing rather rapidly because there is not an effective 
policy dealing with all people making credible fear claims.
    Mr. Ragsdale. Well, there is a balance here. We certainly 
understand that the use of expedited removal has allowed DHS to 
remove more people more quickly than immigration proceedings 
before an immigration judge, by far. So it is a very effective 
enforcement tool.
    The balancing technique----
    Mr. Goodlatte. If that is the case, why is it that ICE has 
requested fewer beds for detention in 2012 and 2013 than they 
have previously?
    Mr. Ragsdale. Well, detention is only one piece of the 
puzzle. I think from what we've certainly heard from 
everybody's testimony today is a need to increase immigration 
court capacity, more officers to work the detention process, it 
is a wider approach than just detention.
    Simply detaining someone with the same hearing capacity 
would lead to----
    Mr. Goodlatte. Well, we certainly agree there should be 
greater hearing capacity. But if you detain people from a 
particular country that is showing this rapid spike up, one of 
two things are going to happen. You are either going to find 
out that there is no uptick in the amount of--in the basis for 
credible fear claims. Or you are going to find out that there 
is something going on in that country that might justify that.
    But by doing that, you are going to find out. If you simply 
release them into the interior of the country, as was occurring 
back then, it is occurring again today, most of them do not 
ever show up for their hearings.
    Mr. Ragsdale. Well, we are certainly working, from our 
chief counsel offices, with the Executive Office for 
Immigration Review to prioritize dockets. We are certainly 
doing everything we can to litigate those cases effectively 
before the Executive Office for Immigration Review. And when an 
immigration judge makes a decision and a removal order is 
entered, we are certainly making every effort to remove them.
    The answer is simply here it is a blended approach. The 
Executive Office for Immigration Review is a big player here, 
and the other point I should make is once a credible fear is 
found and an NTA is issued, an immigration judge has 
jurisdiction to set bond in those cases. So even if an 
immigration officer at ICE sets a bond decision, an immigration 
judge may redetermine it.
    Mr. Goodlatte. My time has expired. I am going to ask you 
one more question. Currently, there is a 92 percent grant rate 
for credible fear cases. How many of these aliens are 
eventually granted asylum by an immigration judge, handled on 
the merits?
    Mr. Ragsdale. Well, again, Executive Office for Immigration 
Review are the right place to get that statistic. If you look 
at the----
    Mr. Goodlatte. All right. Let me ask you another one. Of 
those cases that were denied, how many are removed, and how 
many have absconded?
    Mr. Ragsdale. Again, the Executive Office for Immigration 
Review is----
    Mr. Goodlatte. If you don't have these numbers and you are 
making policy regarding whether or not you should detain people 
when they come in or release them, why don't you have those 
numbers? It would seem to be me to be of great interest to ICE 
to know what is happening down the line.
    And I certainly understand that we can get those numbers 
from other places, but ICE should have those numbers and should 
be making their policy decisions on that basis. It would 
otherwise seem to be a key question in determining whether 
credible fear is becoming a superhighway of abuse.
    Mr. Ragsdale. Well, I'm aware of the numbers. What I would 
suggest to you is those are two different legal standards. The 
asylum standard, as we've heard, is a higher standard where the 
credible fear standard, because of the very powerful 
enforcement tool in expedited removal, is only a significant 
likelihood that a successful asylum claim could be made.
    So ICE does not look behind a CIS adjudication on a 
credible fear. We take that decision and get the person in 
front of an immigration judge.
    Mr. Goodlatte. On a case-by-case basis, that, of course, is 
the appropriate thing to do. But in terms of looking at trends 
of abuse along our border, considering that it is ICE attorneys 
that handle the EOIR dockets, they should know, your agency 
should know, you should know, as someone engaged in formulating 
this policy, what is going on so that you can take appropriate 
measures to stop it.
    That is not happening, and it is disturbing.
    My time has expired. I will turn now to the Ranking Member, 
the gentleman from Michigan, for his opening question.
    Mr. Conyers. Thank you. I appreciate the witness' 
testimony.
    I wanted to let our Committee know that we have three 
asylees that are present at the hearing. A refugee from 
Eritrea, Mr. Tesfatsion. A ``Mr. E,'' so fearful of his 
relationships with his government in Ethiopia that he will not 
use his full name, spent 6 months in detention before he was 
released and granted asylum by an American----
    Mr. Goodlatte. The Chair would ask the Ranking Member to 
suspend for a moment. We have two individuals in the audience 
who are standing. There is no basis for doing so. Members of 
the audience must behave in an orderly fashion, or else they 
will be removed from the hearing room.
    And that will serve as your warning that under Rule 11 of 
the House rules, the Chairman of the Committee may punish 
breaches of decorum and order by censure and exclusion from the 
hearing. I apologize to the gentleman for the interruption.
    Mr. Johnson. Would the gentleman--point of order?
    Mr. Goodlatte. The gentleman will state his point of order.
    Mr. Johnson. Do the rules prohibit a spectator from 
standing up as--and not saying anything, not making any 
gestures, no signs. Just standing up when they were recognized 
by a Member during that Member's presentation? Is that a breach 
of decorum under the rules?
    Mr. Goodlatte. It is not if they are subsequently 
recognized by the Ranking Member.
    The gentleman may proceed.
    Mr. Johnson. Well, if I may, Mr. Chairman? Didn't the two 
gentlemen who stood, weren't they recognized?
    Mr. Goodlatte. We are about to find that out from the 
Ranking Member. And the gentleman may proceed.
    Mr. Johnson. But it is okay. It is okay for them, if 
recognized by a Member here, to stand up?
    Mr. Goodlatte. For a brief time, that is correct.
    Mr. Johnson. It would not be a breach of decorum?
    Mr. Goodlatte. The Ranking Member will proceed.
    Mr. Conyers. Thank you.
    Mr. Johnson. Thank you.
    Mr. Conyers. Mr. Chairman, I hope this will not come out of 
my 5 minutes. I appreciate the gentleman greatly for that.
    But I just wanted to mention them. There is nothing 
profound about them standing up or not. But I wanted to mention 
that they are here. Mr. Tesfatsion from Eritrea, and the 
Ethiopian refugee who can't use his full name, and I don't want 
him to stand up. Pedro from Equatorial Guinea. And I will put 
something about them--I ask unanimous consent to put a small 
statement about each of the three----
    Mr. Goodlatte. Without objection, they will be made a part 
of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                              ----------                              


    Mr. Conyers. And I thank the Chairman, and I thank my 
friend from Georgia as well.
    I wanted to concentrate on the whole question of whether 
there are instances in which a person, Mr. Ragsdale, who 
demonstrated credible fear, established her identity and proved 
that she poses neither a danger to the community nor risk of 
flight would be granted parole conditioned on the posting of a 
bond.
    Mr. Ragsdale. First, I should probably clarify the policy 
that we are talking about from former Director Morton in 2009 
applies only to what are called arriving aliens. So those are 
aliens that arrive at a port of entry and are considered for 
parole. Those folks would either be detained or could be 
paroled by an immigration officer.
    Folks who arrive between a port of entry and are found to 
have a credible fear are considered for release under a 
different section of the Immigration and Nationality Act, and 
those folks could, in fact, be considered for a bond, both by 
ICE and by an immigration judge.
    Mr. Conyers. Thank you very much.
    Are there people who remain in your custody after a grant 
of parole because they are unable to post such a bond?
    Mr. Ragsdale. If we've determined or an immigration judge 
has determined that a particular number of a bond is 
appropriate to guarantee appearance, you know, obviously, that 
is subject to the decision from either the judge or from the 
field office director.
    Mr. Conyers. Thank you.
    And now, last, are you familiar with any cases of persons 
who established credible fear but were denied parole and were 
ultimately granted asylum after spending months in your 
custody?
    Mr. Ragsdale. Again, every case on detention is made on the 
individual facts.
    Mr. Conyers. Sure.
    Mr. Ragsdale. So there may be a case that ICE did detain 
someone while the process went on, and that may be totally 
appropriate. The decision to grant protection is--either rests 
with USCIS or an immigration judge, not with ICE.
    Mr. Conyers. All right. Dr. Wasem, we appreciate your being 
with us today. As you know, the bulk of the credible fear 
claims that were made in fiscal 2012 and 2013 were made by 
people from El Salvador, Honduras, and Guatemala. In your 
testimony, you looked at some of the apprehension and credible 
fear data pertaining to these people and suggest that the 
latest increase may represent a different pattern in migration.
    Could you expand on that a bit?
    Ms. Wasem. I'd be happy to, Ranking Member Conyers.
    In the written testimony, I took a look at apprehensions as 
well to try to better tease out what is going on with this 
uptick. And I observed that in 2005, which is on the chart, 
there were very high apprehensions as well of individuals from 
Guatemala and El Salvador.
    But we did not have the same level of credible fear 
requests then. And so, it--and then the patterns went down 
again, as Figure 9 in my testimony shows. So, clearly, 
something different is happening. I have subsequently also been 
able to take a look at some additional credible fear data by 
country in terms of the rate of being approved or not approved, 
but passing that first credible fear----
    Mr. Conyers. What is that something different that may be 
happening?
    Ms. Wasem. It could be--account for several things. The 
percentage of credible fear found for Salvadorans and 
Guatemalans and Hondurans has gone up since 2008. Even when 
you--when you just look at the percentage of people asking, 
there has been change in the number who are being passed on as 
in that review process.
    So, earlier, a lower percentage of, say, Salvadorans, it 
was closer to 40 percent in 2008, were determined to meet a 
significant possibility. So that first level of review that 
USCIS is doing is showing a higher percentage. So something is 
going on. It could be in-country conditions. It could be things 
happening in Mexico. It could be our policy changes.
    It could be a number of different things, but it's not--
everything isn't moving in the same direction with the other 
patterns. There is some interactive effects----
    Mr. Conyers. Okay.
    Ms. Wasem [continuing]. That warrant further analysis.
    Mr. Conyers. Thank you very much.
    Director Ragsdale, a number of background and security 
checks must be completed before a credible fear interview can 
take place, of course, and I understand that many of those same 
checks are performed when ICE takes custody of the person and 
before the parole determination is made.
    Can you describe some of these checks that might be 
revealed? And if ICE encounters information, what action does 
ICE typically take, and would you have to go to court to 
prevent a person who appeared to be a risk before you can keep 
them from getting out of your jurisdiction?
    Mr. Ragsdale. So we sort of come to this process sort of 
after both our partners in Customs and Border Protection and 
Citizenship and Immigration Services has run a lot of those 
same checks. Those are obviously criminal history checks. They 
are checks related to terrorism screening databases. They're 
based on biometrics. They're based on biographics. So we sit 
here with a very unified approach on how we do those record 
checks.
    If someone came to a port of entry, and there was 
derogatory information, and they were an arriving alien, we 
would make the decision whether or not to keep that person in 
our custody. If the person is found to have a credible fear and 
has arrived between a port of entry, we would set an 
appropriate bond or no bond, and then that person would be able 
to seek redetermination from an immigration judge.
    Mr. Conyers. Now last question, sir. Director Scialabba, is 
there any circumstances under which you sometimes feel you 
can't get the information that you need, and what are your 
alternative recourses?
    Ms. Scialabba. No, I wouldn't say there is any 
circumstances where we feel like we can't get information. We 
actually receive information from CBP, as well as ICE, when 
we're doing credible fear interviews. We also do the interview. 
So we're actually talking to the person that is in front of us, 
finding out what their story is, whether they have any kind of 
history that may indicate there is any kind of criminal 
activity involved and those sorts of things.
    No. I don't feel like we don't get the information we need. 
I think there may be circumstances sometimes where there may be 
an ongoing investigation somewhere, and that information has 
not yet been put into databases that we check.
    And if that's the situation, then we don't really have 
access to that information unless one of our colleagues from 
CBP or ICE may have that information and provide that to us.
    Mr. Conyers. Thank you.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
North Carolina, Mr. Coble, for 5 minutes.
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have you witnesses with us today.
    Ms. Scialabba, DHS indicated 97.8 percent of Indian 
claimants found--were found to have a credible fear of 
persecution. I am told that there is little political turmoil 
in India. Could this be irregular, or do you think those 
figures are correct?
    Ms. Scialabba. Sir, I believe the figures are correct. 
Credible fear really is a screening process. They aren't all 
political persecution claims that are made. Sometimes they're 
related to particular social groups. It could be related to 
inheritance, caste issues that are in India. So they're not all 
political, but the percentage is correct.
    Mr. Coble. And I am furthermore told that part of the 
problems plaguing India now result from socioeconomic reforms. 
Could it be that many of the Indians are fleeing poverty in 
lieu of persecution?
    Ms. Scialabba. It's possible--I mean, that is a 
possibility. The screening process that we do, the credible 
fear screening process has a fairly low standard. It's just a 
screening process to determine whether or not there's a 
significant probability that an immigration judge may find 
asylum.
    When the person goes before the immigration judge, that's 
when really the full panoply of issues and the story that the 
person may have is actually determined, and at that point, we 
also have a nice trial attorney who will cross-examine the 
person and get more information other than what we do in terms 
of this credible fear screening.
    Mr. Coble. I thank you for that. Well, what sort of 
training do USCIS officers receive on country conditions?
    Ms. Scialabba. Our officers have extensive training in 
terms of their initial training for asylum. They also have 
extensive training on credibility determinations.
    For country conditions, our officers have 4 hours a week, 
where they are provided additional information. So if somebody 
is handling particular cases from a particular country, they 
will receive information on those country conditions. We also 
have access to the State Department documents on country 
conditions as well.
    Mr. Coble. I thank you for that.
    Mr. Fisher, what do you think might be the reasons for the 
dramatic increase in applicants arriving at ports of entry, 
claiming credible fear, A? And B, how do you think DHS could 
best deal with this issue?
    Mr. Fisher. Thank you for the question.
    I think, first, those that are coming to the ports of entry 
and in between the ports of entry, for that matter, we need 
more information. We need more requests, specific requests for 
information during the initial encounters that CBP officers 
make at the port of entry, and Border Patrol agents make 
between the ports of entry to fill some of those intelligence 
gaps right now. Generally, what happens when the credible fear 
claim is made within our custody, we generally turn that over 
to ICE ERO and then on to CIS for their interview process.
    So we have to be able to get more information to be real 
specific in terms of any potential vulnerabilities or the 
extent to which it may be exploited as it relates to our 
security risk.
    Mr. Coble. I thank you for that, Mr. Fisher. Let me ask you 
another question.
    Does the spike in credible fear claims give rise to a 
particularized concern relating to our national security, and 
is it well documented that some of the illegal aliens 
arriving--let me get this question--arriving at our border and 
claiming credible fear or persecution or have been affiliated 
with criminal enterprises, such as drug cartels, in their home 
country?
    What is being done to address these concerns?
    Mr. Fisher. Thank you again for that question. Very 
insightful, sir.
    I would tell you that generally when we see a spike in any 
activity, any anomaly, we first set the conditions that, one, 
it is, in fact, a risk at some level until proven otherwise. So 
we take that affirmative step.
    And then, two, we work with the intelligence community, 
with our partners within law enforcement to make sure that 
we're gathering all available information. Not just those that 
are contained in the databases so much, but as mentioned on the 
panel, investigative files. We want to figure out who is 
pending investigations, who's open investigations with one of 
our partners, whether it's the FBI or the DEA.
    And information is the key for us. The more we're able to 
get information about these illicit networks, the better we are 
to be able to assess risk.
    Mr. Coble. I thank you, Mr. Fisher.
    Mr. Chairman, I see that my amber light appears. So I will 
yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Virginia, Mr. Scott, for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Wasem, if someone files a claim, how do you know before 
you have heard it whether it is a bona fide claim or a 
fraudulent claim?
    Ms. Wasem. If someone files a claim before you've heard it?
    Mr. Scott. Right. You can't know. Is that right?
    Ms. Wasem. That's--the credible fear standard, usually the 
final determination is when you go before a judge or an asylum 
officer, you have to provide evidence. This is some of the 
stuff that was in the REAL ID Act in 2005 was establishing what 
evidence is necessary to make that determination.
    So the credible fear screening, if that's--is--is a first 
cut of whether you have a significant possibility of being 
eligible under asylum, but it's not a complete review of the 
process.
    Mr. Scott. Now some people will win, and some people will 
lose. What portion of the claims that are lost are differences 
of opinion, and how many are outright fraud?
    Ms. Wasem. I have no idea.
    Mr. Scott. If you--I think you mentioned in the handful of 
the countries that are driving the numbers, the portion of the 
claims that are actually bona fide is high or low?
    Ms. Wasem. Oh, let me be more clear in terms of 
particularly what I had said earlier with Ranking Member 
Conyers' question. First, you have there has been an increase 
in the first pass at credible fear reviews, and then they go to 
the immigration judges.
    Mr. Scott. How long does that take?
    Ms. Wasem. And the judges then make the final 
determination. They're----
    Mr. Scott. How long does that--how long does that take?
    Ms. Wasem. I'm sorry?
    Mr. Scott. How long does that take?
    Ms. Wasem. Oh, it varies from where you're at in the 
country and the system. But it can take some time to get a 
court date, and I think several people have mentioned the 
delays in getting a court date for that. But the individual, 
when they--what I've observed with the defensive cases, and 
this would be Figure 5 in my written testimony, is you can see 
there has been an increase in Salvadorans, Guatemalans, and 
Indians, for example, in getting actual approvals from the 
Executive Office immigration judges.
    But it's still a very small percent. We're talking 2 
percent of all the approvals are from these countries, which 
have begun to surge. And I expect we won't know for another 
year or two, as those cases work through, whether--in order to 
be able to even evaluate the credible fear review process.
    Mr. Scott. What kind of evidence is presented? Is this an 
adversarial process where both sides are represented? Or does 
the person just----
    Ms. Wasem. When you go before the judges, yes. The credible 
fear review is not.
    Mr. Scott. Who is on the other side?
    Ms. Wasem. In credible fear, it's the individuals from the 
USCIS asylum office. It's an asylum officer for credible fear. 
By the time you get before an immigration judge, it's a formal 
proceeding, and it's part of removal.
    Mr. Scott. If you win before a judge, is that a permanent 
determination or for a specific time?
    Ms. Wasem. If you are granted asylum, any grant of asylum, 
whether it's done by an immigration judge or by a USCIS asylum 
officer, puts you in a conditional status, and after a year, 
you can become a legal permanent resident of the United States.
    Mr. Scott. Okay.
    Ms. Wasem. So that final determination is a significant 
one.
    Mr. Scott. I yield the balance of my time to the gentlelady 
from California.
    Ms. Lofgren. Thank you.
    I--I have been crunching the numbers, and I think it is 
important that as we proceed that it be fact based, not 
anecdotally based. And taking a look, Mr. Ragsdale, at the 
numbers that we got prior to the hearing, I am correct, I 
believe, that the parole directive applies only to people who 
presented themselves at a port of entry. And it does not apply 
to the three-quarters of the people who are found to have 
credible fear after being apprehended by the Border Patrol 
between the ports of entry.
    So when you take a look at the parole directive, it 
actually establishes an affirmative obligation on ICE to 
consider parole for all arriving aliens who demonstrate a 
credible fear of persecution or torture. That is correct, isn't 
it?
    Mr. Ragsdale. That is correct.
    Ms. Lofgren. So if you look at the data, it seems to me 
that in the year since the parole directive was implemented, 
ICE has only made parole determinations for maybe two-thirds of 
the people who were granted credible fear after arriving at a 
port of entry. And if you go through the data, and maybe we can 
do this after the hearing, it looks to me that from the data 
you have given us, that parole is granted in about 75 percent 
of the cases.
    And since ICE may only be considering parole for two-thirds 
of the people eligible, the grant rate is actually closer to 50 
percent. And since 75 percent of the people who claim credible 
fear are not even eligible for parole under the directive 
because they were apprehended by Border Patrol, the actual 
percentage of people found to have a credible fear who received 
a grant of parole is like 12 or 13 percent.
    Mr. Ragsdale. That's right. So I can just put that in a 
little bit larger context. Roughly, in the last year, we've had 
about 220,000 book-ins, we call them, from CBP. Only about 
18,000 of those were from the ports of entry. Only about 6,000 
of those are folks that have claimed credible fear.
    So the number of folks compared to people apprehended 
between the ports of entry, as opposed to at the ports of 
entry, it is a fraction.
    Ms. Lofgren. Mr. Scott's time has expired. So I will get my 
own.
    But I would like to ask unanimous consent to put the 
following statements into the record from the Center for 
Victims of Torture, the Evangelical Immigration Table, Human 
Rights First, Immigration Equality, Lutheran Immigration and 
Refugee Services, the Hebrew Immigrant Aid Society, the U.S. 
Commission on International Religious Freedom, the National 
Immigration Forum, the CAIR Coalition, the National Immigrant 
Justice Center, the American Immigration Lawyers Association, a 
letter signed by 118 national, State, and local organizations 
and 27 legal experts underscoring the importance of the asylum, 
the U.S. Conference of Catholic Bishops, and the United Nations 
High Commissioner for Refugees.
    Mr. Goodlatte. Without objection, they will be made a part 
of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________

    Mr. Goodlatte. The Chair now recognizes the gentleman from 
Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses for your testimony.
    First, I would like to turn to Mr. Ragsdale and follow up 
on a question, and that is that how many who claim credible 
fear fail to appear before an immigration judge? I know you 
testified that you are aware of that number. What is it?
    Mr. Ragsdale. I am. It's a blended number, which is why 
it's difficult to calculate. In other words, there are not 
year-to-year distinct datasets.
    So, in other words, someone that arrives this year gets a 
hearing in front of an immigration judge, and it varies in city 
to city based on the docket, may not see an immigration judge 
for a final decision or failure to appear for their hearing 
until years later. So that data is, in fact, maintained by the 
Executive Office for Immigration Review.
    Mr. King. When you draw a conclusion as to that data that 
you are aware of, what is that conclusion that you draw?
    Mr. Ragsdale. It is somewhere around 20 percent.
    Mr. King. Twenty percent fail to appear?
    Mr. Ragsdale. Correct.
    Mr. King. That is interesting. I remember John Ashcroft 
testifying before this Committee on a broader group of those 
who failed to appear, and his number that day some years ago 
was 84 percent are alien absconders. And so, that is a number I 
will want to examine more deeply. I appreciate your response.
    I would like to go with Mr. Fisher and ask you are your 
apprehensions at the--well, I want to ask some questions about 
drug interdiction at the border. Are those numbers up or down 
over the last, say, 5 years in your experience?
    Mr. Fisher. Over the last 5 years, depending upon marijuana 
versus cocaine, methamphetamines, we've seen up and down in 
both of those categories.
    Mr. King. Okay. Well, let me just point this to marijuana 
itself. Are those numbers up or down on balance over the last 5 
years?
    Mr. Fisher. They are up, sir.
    Mr. King. Okay. And generally speaking, if you had to talk 
about the aggregate of drugs, are there more or less drugs 
coming across the border?
    Mr. Fisher. I think if you compared previous 10 years 
versus the last 5 years, generally those numbers would be up as 
well.
    Mr. King. Still up. And the value of the drugs coming 
across the border, up or down?
    Mr. Fisher. Um, probably up as well, yes.
    Mr. King. Okay. The value of the drugs are up. The 
transport of drugs across the border are up. What about the 
tragic deaths in the desert of those who attempt to come into 
the United States and don't make it through to beyond the 
desert, Arizona and Texas in particular. Are those numbers up 
or down?
    Mr. Fisher. Recently, over the last couple of years, those 
numbers are down.
    Mr. King. They are down.
    Mr. Fisher. Yes, sir.
    Mr. King. How many would you say are lost in the desert? 
What would that number be over the last year?
    Mr. Fisher. I don't have the specific numbers with me, sir, 
but I'm happy to get that to you after the hearing.
    Mr. King. It seems to me that I have seen some numbers that 
showed us desert numbers in around 250 that now over the last 
year or so have grown to perhaps as high as 450. Does that 
comport with your understanding?
    Mr. Fisher. That sounds about ballpark, sir. I'd have to 
take a look at the actual end of year report for '13 and make--
--
    Mr. King. To me, then, those numbers would be up. I ask 
these questions this way because if there is equal or more 
drugs coming across the border and if the value of those 
drugs--or the volume of those drugs essentially are equal or 
more, if there are fewer people that are losing their lives in 
the desert trying to come into the United States, then I would 
just ask this question. Are your apprehensions at the border up 
or down, say, over the last 5 years?
    Mr. Fisher. Over the last 5 years, again, if you're looking 
at the comparative back in the '90's, they are down. If you'll 
look just over the last 2 years, fiscal year 2012 and 2013, and 
do the comparative, we're slightly up.
    So, for instance, if you're comparing fiscal year 2012 
apprehensions with fiscal year 2013 apprehensions, we were up 
approximately 16 percent end of last year.
    Mr. King. Okay. I am looking at numbers here that show 
2004, 1,164,000 apprehensions at the border; '05, 1,189,000; 
and in '06, 1,089,000. '07, it went to 876,000. And then it 
began to go down, according to this Border Patrol record I 
have, from 723,000 in '08 to 556,000 in '09, 463,000 in '10, 
340,000 in '11, and 364,000 in '12.
    That would tell me that approximately one-third of the peak 
apprehensions between '04 and '05 are what actually the product 
of a large Border Patrol that we have now, roughly the same 
amount of drugs being interdicted, no reduction that I can see 
in the loss of lives in the desert.
    So I am troubled by the overall picture of this, and I 
would just make this point. It seems as though there is a 
decision made by this Administration that they are going to 
target the resources. It is a decision to target the resources 
the most effectively as possible at those persons who pose the 
most risk to Americans. That is, I think, consistently the 
policy that we have heard from this Administration.
    However, I am wondering what that picture would have been 
if we would have had a Rudy Giuliani broken window philosophy, 
and we had had people come from the Administration before this 
Committee and the Appropriations Committee and say this is what 
we need for resources to fully enforce the law, to fully 
control the border, to fully have enough beds to adjudicate, to 
send a message to everyone who is in this universe of 35,000 or 
1-plus million that we are going to enforce the law.
    It seems to me that would be the most effective thing that 
we can do, and it looks to me like we are having less 
interdictions at the border, and that might indicate less 
aggressiveness at the border if we are picking up as many drugs 
and if we are losing as many or more people in the desert.
    That is my overall view on this. I appreciate your 
testimony, yield back the balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from California, Ms. Lofgren, for 5 
minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I think it is important, in addition to being fact-driven 
on this, that we touch base also with the reason why we have an 
asylum system and why we have a refugee program. And that is 
because America is a beacon of hope for the rest of the world.
    I actually--in addition to being Ranking Member on the 
Immigration Subcommittee, I am one of the bipartisan co-chairs 
of the Refugee Caucus here in the House of Representatives, co-
chaired by our colleague Chris Smith from New Jersey, who is 
well recognized as a human rights activist. It is important 
that we have--that we continue to be that beacon of freedom and 
that we should not lose sight of that.
    I think we ought to have some concern about this fact. If 
you come and escape torture, you make your claim of asylum, the 
first thing that happens to you is you get thrown in jail in 
the United States and you stay there usually for a very long 
time.
    We have some examples here, and I will just mention one. A 
Tibetan man who was detained and tortured by the Chinese 
because of his advocacy for freedom in Tibet. Detained for 
about a year in our custody when he made his asylum plea.
    A Baptist woman from Burma who was denied parole, even 
though she had proof of her identity, and was paroled only 
after 25 months in detention.
    A man from Uganda who was arrested and tortured by police 
because of his sexual orientation, who was held in detention 
for 1 year before he was granted political asylum.
    An Afghani man who came to the United States after being 
targeted by the Taliban as a U.S. loyalist because he provided 
translation services for our soldiers in Afghanistan. Despite 
establishing a credible fear of prosecution, he was detained 
for more than a year before he was granted asylum. So I think 
we have some soul searching to do on how we treat legitimate 
asylum seekers in this country.
    I think we also need to have these facts in place. I mean, 
there have been assertions that the credible fear process 
somehow confers some kind of protective status on the 
undocumented, and that is not true. I mean, you are subject to 
criminal investigation and prosecution if that is warranted. 
That somehow Government officials and counterterrorism agencies 
don't have access to the asylum information. That is not 
correct. That individuals who are security threats or flight 
risks are eligible for release from detention. That is not so. 
That somehow extensive background and security checks aren't 
required for this credible fear determination. And finally, 
that there is some basis for asserting that these credible fear 
claims are fraudulent. We don't even know that because they 
haven't been adjudicated before the courts at this time.
    In terms of, you know, no one believes it is proper for a 
person not to appear in court. I do not. None of the Members 
believe that. But I think it is important to take a look at the 
actual data, and if you take a look at the reports we have 
gotten from the Department of Justice, the number of failure to 
appear is going down. The percentage is going down.
    In 2008, the FTA rate was 10.3 percent, and in 2009, it was 
6.5 percent. In fiscal year 2010 and 2012, it was 5 percent. So 
is 5 percent acceptable? No. But it is on the right trajectory 
on what is happening. I think that we ought to keep that in 
mind.
    Finally, I do think that the--you know, there are lies, 
darned lies, and statistics. But we need to take a look at 
whether we are comparing apples to apples. And when you take a 
look, and maybe I could ask you, as Deputy Director of USCIS, 
the numbers, the 90 and 92 percent that we keep hearing about, 
it seems to me that that may not be accurate because we are not 
counting the withdrawn applications, and there are plenty--
there are people--I have seen cases where people who are 
actually probably valid asylees are so distressed by prolonged 
detention that they give up and go back to where they are from.
    So it looks to me that it is more on the nature of about 80 
percent. Would you say that is correct?
    Mr. Goodlatte. The time of the gentlewoman has expired. 
Without objection, Ms. Scialabba will have 1 minute to respond 
to the question.
    Ms. Scialabba. That is correct. Ninety-two percent are the 
number of credible fear interviews we do. However, there are a 
percentage of those people who will withdraw at some point, and 
I think the--I think the actual credible fear interviews that 
we do that go forward is about 84 percent.
    We are tracking the withdrawals now. We are keeping those 
statistics separate.
    Ms. Lofgren. I would just note that I think--Mr. Chairman, 
I would like to ask unanimous consent to put into the record a 
letter from the Department of Justice to our colleague, Mr. 
Chaffetz, that has some of the statistics that I have referred 
to here.
    Mr. Goodlatte. Without objection, that will be made a part 
of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________

    Mr. Goodlatte. And I will also ask unanimous consent to 
make a part of the record information provided to the Committee 
that shows that since 1996, nearly 800,000 nondetained aliens 
in removal proceedings simply became fugitives and did not 
report for future hearings.*
---------------------------------------------------------------------------
    *The information referred to is not reprinted in this hearing 
record but can be accessed at http://www.cis.org/Immigration-Courts.
---------------------------------------------------------------------------
    The Chair now recognizes the gentleman from Arizona, Mr. 
Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, I was moved by some of the comments in your 
opening statement that pointed out that the United States has 
always been a very compassionate country that is committed to 
trying to be a place of refuge and relief for those that are 
fleeing genuine persecution, those that are genuinely in danger 
in their countries for a variety of reasons. And I think that 
is laudable and notable, and that is really the centerpiece of 
why we are all here today is that we are discussing this notion 
of making sure that America continues to be that last best 
hope, that bastion of freedom.
    But I will suggest to you that if, indeed, we allow that 
process to be abused, if we do not scrutinize between those who 
are genuinely persecuted and genuinely trying to seek a way to 
escape deadly or lethal persecution from those who would use it 
as strictly a facade to gain entrance into this country, then 
those that we disserve the most are those that are genuinely 
persecuted. Because that process inevitably leads to people 
that are persecuted not being able to find any sort of refuge.
    And I would really want to emphasize that because I am 
afraid, Mr. Chairman, that the process is being abused. And Mr. 
Fisher, I would just point to you. From your testimony, it 
appears that you do not have any conclusions why we are seeing 
now 36,000 credible fear applications in a single year, which 
is up from just 5,000 in 2008.
    And perhaps it looks to me like the word has gotten out 
that credible fear claims might be a good way to get into the 
country, and not only is the abuse of credible fear process 
weakening our borders. It weakens the purpose of having these 
exceptions, and it increases the chances of those who are truly 
persecuted and not being able to escape. But it also appears 
that the Administration may be engaged in a sort of a wholesale 
effort to degrade our border security.
    Shawn Moran, the vice president of the National Border 
Patrol Council, the Border Patrol union, states that the Border 
Patrol management has begun the practice of ordering Border 
Patrol agents to stand down and cease pursuing drug smugglers, 
human smugglers and traffickers, and illegal aliens. He has 
warned that this process could lead to illegal aliens with 
possible terrorist connections entering the country.
    And so, I guess my first question, Mr. Fisher, is to you. 
Has any such stand-down policy or any effort made to try to 
diminish the practice of trying to diminish our law enforcement 
there at our border, has any stand-down policy like that been 
issued to Border Patrol agents?
    And if not, what do you think the Border Patrol Council or 
the Border Patrol unions are really talking about here?
    Mr. Fisher. Absolutely not, to your question, Congressman. 
And I don't know the motives and the context by which the union 
member would have made those statements.
    Mr. Franks. So they are just--this is just a false claim 
that there is no such indication either on the basis of budget 
concerns or on the basis of some other motivation that these 
efforts should be diminished or not as intense as before?
    Mr. Fisher. I have not written any directive nor have I 
signed any policy which would increase the risk to this country 
as it relates to our ability to continue to go after people 
that would do harm to this country once they've made an entry.
    Mr. Franks. And you know of no one on any level that has 
participated in any way in that regard. Correct?
    Mr. Fisher. I'm talking, sir, in terms of my direct command 
and control with the Border Patrol agents. That is not my 
policy, nor have I signed any directives----
    Mr. Franks. Any oral comments to that effect to anyone? Any 
oral or verbal statements to the agency in general or the 
people that are kind of on the ground in general to that 
effect?
    Mr. Fisher. Sir, not that I'm aware of.
    Mr. Franks. Well, that is a good answer.
    Well, I guess, Mr. Chairman, I would just revert then to my 
original point that, indeed, if you do not know why--and you 
have said earlier, the other gentleman, that you have these 
numbers, but you haven't told them to us--why we are seeing 
this enormous increase in credible danger claims. And if you do 
not know why that is the case, then I would just suggest to you 
that if our goal here is to serve the cause of human freedom, 
we have two bases.
    We have to make sure that the flagship of human freedom is 
not weakened somehow by the process, and that being America. 
And secondly, we have to make sure that we know the difference 
between those who are truly, lethally persecuted and those who 
are not. And I would suggest to you that the numbers indicate 
that we are missing that mark pretty profoundly.
    And with that, Mr. Chairman, I would yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from Texas, Ms. Jackson Lee, for 5 
minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you for holding this 
hearing. I think whenever we can reinforce the truth, it is a 
very crucial hearing.
    I thank the Ranking Member as well for his cooperation.
    And I think the Chairman knows that as I start every 
hearing that addresses the ladies and gentlemen that are before 
us and we get into this area, I always offer that a scheme, a 
structure, such as comprehensive immigration reform truly will 
be part of the matrix that will help us move toward an 
effective structure that all of you can abide by.
    Let me thank you for your service as well, even in light of 
our still struggling with the final results of comprehensive 
immigration reform.
    Let me also say that this issue of asylum addresses the 
most vulnerable people in the world, people who are coming, 
fleeing persecution, some leaving family members behind, some 
escaping barely with their lives, and looking over their 
shoulder and seeing the bloodshed of those family members or 
friends or communities left behind. And I truly believe in the 
message of the Statue of Liberty, which ultimately had the 
welcoming of those who were coming to this country for 
opportunity. But it still stands as a very important symbol for 
those who are fleeing persecution.
    And I might just to put in the record a list of moments 
when the United States needed to open its doors mostly, and in 
some instances, we did. In some, we did not. I start with the 
1930's. World War II created a massive refugee crisis, and U.S. 
immigration policy restricts the acceptance of Jewish refugees 
fleeing Nazi persecution. I think we would have wanted to 
reconsider our interpretation of what we did in that instance.
    In 1948, the United States increases immigration quotas, 
accepting large numbers of refugees and displaced persons from 
Europe. Some many, many years later after, of course, the 
horrific, horrific, catastrophic Holocaust.
    Then, of course, the 1990's, the residual impact of civil 
war in Central America continues the Central American migration 
to the United States. We can document the violence during that 
time.
    2005, Iraqis associated with the United States Government 
faced political persecution during the conflict in Iraq. The 
United States slowly began accepting Iraqi refugees in larger 
numbers.
    And there were other times as well. And so, I would like 
this hearing not to move away from the idea of what asylum is 
all about, and as a member of the U.S. Congressional Human 
Rights Commission, I can tell you that we face these crises all 
the time.
    So I quickly want to ask questions of just an overall 
question that when we look at the landscape of asylum seekers 
that may utilize credible fear, and we take the number 100 
percent in terms of looking at the world, not only South and 
Central America, let me ask all of you, is there an epidemic of 
people using credible fear not legitimately?
    So would you say 70 percent of the people coming use 
credible fear, and it is not true? Ms. Scialabba?
    Ms. Scialabba. Thank you, Congresswoman.
    Ms. Jackson Lee. And I just need a yes or no answer. This 
is just a--would you say that the dominant number of people 
coming in use credible fear inappropriately?
    Ms. Scialabba. I don't think that's the purpose of the 
credible fear interview. But, no, I wouldn't say that they're 
using it inappropriately.
    Ms. Jackson Lee. Mr. Ragsdale?
    Mr. Ragsdale. It's a little outside of my area of 
expertise, but I don't think the numbers would support that 
conclusion.
    Ms. Jackson Lee. Mr. Fisher?
    Mr. Fisher. Congresswoman, it is out of my area of 
expertise, and I could not make a judgment at that point.
    Ms. Wasem. Congresswoman, given that the--many of the 
uptick is still in the court system, I don't think we can 
answer that question with any definitive data.
    Ms. Jackson Lee. Well, I think that--let me just--well, you 
are in the GAO. The question is generically whether or not if 
you took 100 percent of those seeking asylum, and they raised--
they raise it in the courtroom, they raise the credible fear. 
Is the credible fear being offered by that asylum seeker, is 
100 percent of the people using it inappropriately? I think 
that is a----
    Ms. Wasem. Well, obviously, there are--excuse me. There is 
a portion of the individuals who have already worked through 
the credible fear and then the defensive process who ultimately 
obtained asylum. We don't know exactly how many there are, but 
that data suggests that not all of them are abusing the system 
or the courts would not have granted them asylum.
    Ms. Jackson Lee. I think that is the basic point that we 
want to emphasize that we don't have an epidemic of abuse that 
can be documented. If you can't document the other way, you 
cannot document that there is an epidemic of abuse.
    If I can just get an additional second for one question, 
Mr. Chairman? I would like to again go to the purpose of the 
credible fear process is not to identify meritorious asylum 
claims or to weed out claims that might not succeed before the 
immigration court. Isn't the credible fear process designed to 
weed out clearly non-meritorious, frivolous cases?
    Isn't it to also, in light of the limited purpose that the 
credible fear process is meant to serve, when we jeopardize the 
lives of bona fide asylum seekers if we were to raise the 
standard, that's a very important point?
    And if you would answer that, Ms. Scialabba?
    Mr. Goodlatte. The gentlewoman's time has expired, but 
without objection, the gentlewoman----
    Ms. Jackson Lee. Thank you.
    Mr. Goodlatte. - will be given 1 minute to answer the 
question.
    Ms. Jackson Lee. So raising the standard, would that be a 
problem? And then, isn't the credible fear process designed to 
weed out clearly non-meritorious, frivolous cases, and wouldn't 
it be a problem to raise the standards, hurting other people 
just to try and weed out what may be an undocumented fear?
    Ms. Scialabba. I think the standard was carefully thought 
out when the legislation was passed. There is a lower standard 
that's manifestly unfounded that we do not use. We use the 
standard of significant possibility because we don't want to 
take the risk that somebody who has a legitimate claim to 
asylum or torture--we also look at the Convention against 
Torture as well as asylum--would be returned to their country 
and be persecuted or tortured.
    Ms. Jackson Lee. So you see no reason to raise the 
standard? That is what I am trying to--to make it harder?
    Ms. Scialabba. No, I--I think that standard was carefully 
thought through when it was enacted.
    Mr. Goodlatte. The time of the gentlewoman has expired. The 
Chair recognizes the gentleman from Texas, Mr. Gohmert, for 5 
minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Ms. Scialabba and Mr. Ragsdale, do you, as Deputy 
Directors, take an oath before you assume your office?
    Mr. Ragsdale. I took an oath the day I became a Federal 
employee.
    Mr. Gohmert. But as Deputy Director, did you take an oath 
to become--to assume that role?
    Mr. Ragsdale. I didn't take another oath. In other words, I 
took the oath that I accepted when I joined Federal service.
    Mr. Gohmert. Yes. Ms. Scialabba?
    Ms. Scialabba. I also took an oath when I joined Federal 
service. I've renewed that oath several times. I don't think it 
was necessary. But--because I've been in Federal service my 
entire career, but I've renewed it several times, yes.
    Mr. Gohmert. Okay, and that is an oath to follow the 
Constitution, correct, protect and defend? Correct?
    Mr. Ragsdale. Yes.
    Mr. Gohmert. And you understand under Article I, Section 8 
that the Congress is given the power to make the law when it 
comes to issues regarding immigration, naturalization, those 
type of things. Correct?
    Ms. Scialabba. That's correct.
    Mr. Ragsdale. Yes.
    Mr. Gohmert. Okay. Thank you.
    Because I have before me, and I will read for you, it is 
from the Uniform--or from the United States Code, Volume 8, 
Section 1225, and this is under the Section B, entitled Asylum 
Interviews. And under subparagraph (ii), Referral of Certain 
Aliens, it says, ``If the officer determines at the time of the 
interview that an alien has a credible fear of persecution 
within the meaning of clause (v), the alien shall be detained 
for further consideration of the application for asylum.''
    I don't see anything other than ``shall'' and ``be'' as the 
verb there, ``shall be detained,'' the verbal clause there as 
to what actions can be taken. So since the Congress established 
that someone shall be detained, what law that Congress passed 
in accordance with Article I, Section 8 does--do your services 
rely on to avoid, and particularly you, Mr. Ragsdale, do you 
rely on to not follow the law that says ``shall be detained''?
    What law can you cite for me that avoids that ``shall be 
detained'' mandatory language?
    Mr. Ragsdale. So I am familiar with that section of the 
act. It's my understanding--and again, I certainly rely on my 
lawyers to tell me this. We do detain people during the 
credible fear process to find out whether or not our sister 
agency makes a finding that there is, in fact, a credible fear.
    I think this also has to be put into some context here.
    Mr. Gohmert. Well, that is not my question about context. I 
am asking about the law because I am real concerned about it. 
We had people sitting right where you are who talked about this 
Administration making up its own laws, refusing to follow the 
Constitution, refusing to follow their oath in enforcing the 
law and faithfully executing the law. So I am trying to find 
out when you take action, what law are you following?
    Could it be some memo, a memo from ICE Director John Morton 
that says, hey, you know, if they establish their identity, 
pose no flight risk or danger, have a credible fear, you know, 
go ahead and release them? Is that what you rely on, Director 
Morton's memo to overcome United States law and the 
Constitution?
    Mr. Ragsdale. Well, as the ranking career person, right, I 
follow the agency, the Administration's policy. I will say 
there's another section of the Immigration and Nationality Act 
from 1952 that does, in fact, recognize parole in certain 
circumstances, and I would posit that as the section that's 
being followed here.
    Mr. Gohmert. I would posit for you----
    Ms. Lofgren. Would the----
    Mr. Gohmert [continuing]. As a Member of Congress, and I am 
not yielding--that when there is a conflict between the law and 
a policy of an agency, the policy of the agency has to give way 
to the law as passed by Congress. It is a very discouraging 
aspect of this Administration that we seem to be having this 
problem a lot.
    And when the people who are charged with enforcing the law 
do not, they make up their own policies despite the law, then 
as one person said, then the general population gets the 
message they don't have to follow the law either.
    I see my time has expired. Thank you.
    Ms. Lofgren. Mr. Chairman, I would like to ask unanimous 
consent that the gentleman be given an additional 20 seconds so 
he might yield it to me.
    Mr. Gohmert. My time is expired. I'm not asking any more 
time.
    Mr. Goodlatte. The Chair would recognize----
    Ms. Lofgren. I ask unanimous consent----
    Mr. Goodlatte. The Chair will recognize the gentleman from 
Georgia, and the gentlewoman can place her request to----
    Ms. Lofgren. I would like to ask unanimous consent to put 
the Section 212(d)(5)(A) and Section 214(f) of the Immigration 
and Nationality Act into the record, disproving all of the 
comments just made by my colleague from Texas.
    Mr. Goodlatte. The first part of that will be made a part 
of the record. Without objection----
    Mr. Gohmert. Yes, I would object to that being part of the 
record, that ``disproving what her colleague just said,'' 
because it does not disprove what her colleague said. There is 
objection.
    Mr. Goodlatte. But the statutory provision will be made a 
part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________

    Mr. Johnson. I believe it speaks for itself.
    Mr. Goodlatte. Without objection, that will be done. And 
now the gentleman from Georgia is recognized for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    I believe that our whole detention--immigration, detention 
setup is just a way for private industry to make money, and I 
will--I will deal with it like this. Are you, Mr. Ragsdale, 
familiar with the term the ``detention bed mandate?''
    Mr. Ragsdale. I am familiar with that term, yes, as it 
relates to----
    Mr. Johnson. And that's a term that came about in part due 
to the 2014 budget that was approved by this fiscally 
conservative, debt and deficit-reducing, Republican-controlled 
Congress, i.e., the Appropriations Committee that granted $147 
million above what the Department of Homeland Security 
requested to maintain what amounts to an arbitrary quota of 
34,000 detention beds that American taxpayers are going to pay 
for, regardless of whether or not they are filled.
    Is that correct?
    Mr. Ragsdale. There is a section in the appropriations law 
that requires us to maintain 34,000 beds. That's correct.
    Mr. Johnson. And it is something that you never requested? 
This was done for the purpose of detaining more immigrants. 
Isn't that correct?
    Mr. Ragsdale. Well----
    Mr. Johnson. Yes or no?
    Mr. Ragsdale. More detentions happen when there is more 
funded beds. That's correct.
    Mr. Johnson. And prisons are a task or a--prison--we need 
prisons to imprison people who need to be there, but our 
Government is--our Federal Government as well as many States 
have been on a trek to privatize the prison system. Isn't that 
correct?
    Mr. Ragsdale. There are commercial providers for detention 
services, yes.
    Mr. Johnson. About 50 percent of all detainees are held in 
private detention centers. And now if we want to reduce the 
debt and the deficit, but at the same time, we are increasing 
spending for the detention of immigrants, that is inconsistent, 
don't you think, Mr. Fisher?
    Isn't that inconsistent, those ideals inconsistent?
    Mr. Fisher. Well, sir, with respect, again outside of my 
area, but----
    Mr. Johnson. Well, no, no, no. Just I mean, that doesn't--
that doesn't take any specific knowledge. That is just a matter 
of common sense.
    I mean, seems to me if you want to cut the budget, you want 
to cut food stamps. But yet, last year alone, we appropriated 
nearly $18 billion to immigration enforcement agencies, Mr. 
Fisher. That is about 24 percent higher than the $14.4 billion 
total allocation for law enforcement agencies across the board, 
including FBI, DEA, U.S. Marshals, and ATF.
    So, in other words, we have--I mean, we spend more money on 
homeland security, ICE, and detention and immigration 
enforcement than we do for FBI, DEA, U.S. Marshals, and ATF 
combined. Did you know that?
    Mr. Fisher. Stated that way, sir, no.
    Mr. Johnson. Yes, well, I mean, that is the facts. Now 
while we are detaining, because we do detain these asylum 
seekers, do we not, Mr. Ragsdale? We detain them until they are 
granted parole, and we detain them for on average of 550 days. 
Isn't that correct?
    Mr. Ragsdale. Well, I'm not----
    Mr. Johnson. Until they are granted parole?
    Mr. Ragsdale. I'm not sure precisely what number you're 
talking about there. As we've already heard this morning, 
aliens who arrive at or between ports of entry who----
    Mr. Johnson. Well, let me get it to--let me get it like 
this. How many day--how many months in general do we detain 
asylum seekers before we are able to make an assessment as to 
whether or not they qualify for asylum?
    Mr. Ragsdale. So it varies on a case-by-case basis. CIS has 
done some very helpful work in expediting the credible fear 
process. That is now done in a number of days.
    The Executive Office for Immigration Review is the 
responsible party for making ultimate decisions on defensive 
asylum claims, and that is a longer process.
    Mr. Johnson. Mr. Chairman, it is clear to me that it is all 
about the money. I yield back.
    Mr. Gowdy [presiding]. The gentleman from Georgia yields 
back.
    The Chair would now recognize the gentleman from Texas, 
Judge Poe.
    Mr. Poe. Thank the Chairman.
    I want to make it clear that I think that the concept of 
asylum is something that the country needs to do. Although I 
think it appears now that that is being abused by some specific 
individuals and by probably some groups. Otherwise, this chart 
wouldn't look like what it looks like.
    The word has gotten out here is a way you can make a joke 
of the American law. And that just irritates me. So I want to 
talk about that group, not the legitimate folks who come to 
America for the reasons that we have America.
    The reports that the drug cartels, when they get in a 
conflict south of the border, they tell their folks that are in 
the conflict, go to America, seek asylum, heat is off, you can 
come back. We will let you know when it is time to come back. 
Have you heard of that report? Any of you.
    The Chief?
    Mr. Fisher. Congressman, thank you for that question.
    As a matter of fact, the intelligence report that I was 
referencing coming out of El Paso did have early collection 
that that, in fact, was happening.
    Mr. Poe. Thank you. And being from Texas, that--drug 
cartels are the enemy of the country. That is why we need more 
border security is because of them, the criminal threat to the 
United States. Not because of some of the other reasons maybe 
that people talk about. That is what concerns me as a Member of 
Congress and a former judge, border security, we have to go 
after these people, these bad guys, these criminals.
    The hypothetical question, and so I am just looking for an 
answer here. Can a person claim asylum when the person is not 
just crossing the border, and you guys catch them, but 
somewhere else? Let us say they are in Oklahoma for some 
reason. I will use Oklahoma.
    And they are stopped for speeding. A person, we don't know 
this because we don't do a background check sometimes on people 
from foreign countries because we don't get that information. 
We don't know anything about this person. We will never know 
anything about the person, but there is no criminal record that 
we have.
    They have been in the country who knows how long. They are 
stopped by the Oklahoma Highway Patrol for speeding. They seek 
asylum the moment that they are stopped. Does the law say that 
is a bona fide asylum seeker, and they treat it through that 
route?
    They are in Oklahoma. They are not anywhere close to the 
border. They aren't even close to the Texas border.
    Ms. Scialabba. I'll answer that question. A person who is 
stopped like that who doesn't have proper documentation would 
be issued a notice to appear and appear before an immigration 
judge. They would not be part of the expedited removal process. 
They wouldn't receive a credible fear interview.
    If they were here legally----
    Mr. Poe. No, they are not here legally.
    Ms. Scialabba. Okay. If they're here illegally, then the 
way that it would be--the only way they could apply for asylum 
is if they're placed into removal proceedings before an 
immigration judge.
    Mr. Poe. I couldn't hear you.
    Ms. Scialabba. If they're here illegally, the only way they 
could apply for asylum is if they're placed in removal 
proceedings before an immigration judge. They would make that 
application.
    Mr. Poe. But they have claimed credible fear as soon as 
they are stopped by the police.
    Ms. Scialabba. At that point, they cannot. Credible fear 
does not apply in that situation.
    Mr. Poe. Okay. Is there a----
    Ms. Scialabba. It only applies----
    Mr. Poe. Let me--may I ask the question? Does the law 
require that that be claimed a certain distance from the 
border? That is my question.
    Ms. Scialabba. Expedited removal only applies 100 air miles 
from the border if the person hasn't been present for more than 
14 days. And at the----
    Mr. Poe. Talking about an asylum seeker. They are talking 
about an asylum seeker. Does that--does the law say they have 
to be within 100 miles of the border or 25, or does it make a 
difference?
    Ms. Scialabba. Oh, no. It does not, not in terms of who can 
apply for asylum, no, sir.
    Mr. Poe. That is the question. So the question, the answer 
to the question is you can be an asylum seeker when you are 
stopped in Oklahoma or Idaho or New York. You don't have to be 
anywhere close to the border, and we don't really know, since 
there is no criminal record, that the person, how long they 
have been in the country.
    My question is very simple. Don't you think we ought to 
change the law that asylum seekers, when crossing the border, 
ought to be seeking asylum rather than, oh, by the way, I am an 
asylum seeker now that you caught me? You think that might be a 
good change to the law to prevent abuses?
    Ms. Scialabba. Well, a person has to----
    Mr. Poe. Do you think that might be a good change of the 
law to prevent abuses or no?
    Ms. Scialabba. No, I do not.
    Mr. Poe. Well, I think it should be.
    And the last question I have is, are there any organized 
groups that you know of that are helpful or responsible for 
this spike in the numbers other than possibly the drug cartels 
who are gaming the law, as they have always done? That is my 
last question for the Chair.
    Mr. Fisher. Congressman, I will take that. As we get more 
and more information about illicit networks, as they change 
their tactics, techniques, and procedures, they are, in fact, 
looking for areas of vulnerability, and in particular, as the 
report indicated, as it relates to credible fear, we have seen 
that as well.
    Mr. Poe. All right. I thank the Chair.
    Mr. Gowdy. Thank you, Judge Poe.
    The Chair would now recognize the gentleman from Utah, Mr. 
Chaffetz.
    Mr. Chaffetz. Thank you.
    And I would like to concur with Judge Poe's concern and 
belief that we do need an asylum process. We want people who 
come legally, lawfully. We have a rich heritage with this. But 
what is unconscionable, what we cannot stand for are people 
that abuse the system.
    My understanding, Mr. Ragsdale, is that there are 
approximately 872,000 people, aliens, who remain in the United 
States despite final orders of removal. That would be an 
accurate number. Correct?
    Mr. Ragsdale. We have a different number. We have our 
fugitive backlog at about 460,000.
    Mr. Chaffetz. So somewhere between--we will to after this 
hearing share documents. But it is by the hundreds of thousands 
of people that are supposed to be removed from this country. 
They have orders from the Government to deport, and they don't.
    We can get into the whole lack of an entry/exit program. We 
have hundreds of thousands of people that are not--I think that 
is a crisis. I think that is a huge problem, especially when 
ICE is going to have less beds and less officers. Let us talk 
about this.
    I am very curious, on page 6 of your joint testimony, it 
says asylum officers also ensure that the Federal Bureau of 
Investigation--well, let me go to this first. I guess it is to 
USCIS. How many asylum officers do we have in this Nation?
    Ms. Scialabba. There are currently 270.
    Mr. Chaffetz. So there is 270 people that are supposed to 
take care of this 35,000-plus number, right?
    Ms. Scialabba. Yes.
    Mr. Chaffetz. Has that number, the 272, has that increased 
over the last 5 years, or pretty much the same?
    Ms. Scialabba. It has increased, and we're in the process 
of hiring 100 more asylum officers.
    Mr. Chaffetz. How much time does that asylum officer take 
in interviewing somebody?
    Ms. Scialabba. Are you referring to a credible fear 
interview or an asylum----
    Mr. Chaffetz. Yes, yes.
    Ms. Scialabba. For an credible fear interview, it's 
probably about 20 minutes is the interview. But prior to that, 
they would review all of the documentation that was accumulated 
and taken by the Border Patrol----
    Mr. Chaffetz. Okay. So they get about 20 minutes on 
average.
    Ms. Scialabba. On the actual interview.
    Mr. Chaffetz. On the actual interview, right. And we heard 
in the Oversight Committee about how overworked a lot of these 
people are. But page 6 of the testimony, joint testimony, 
``Asylum officers also ensure that the Federal Bureau of 
Investigation name check and fingerprint checks have been 
initiated.''
    And I am curious about the word ``initiated.''
    Ms. Scialabba. They're generally initiated by CBP or ICE. 
Oftentimes, those responses aren't back yet when we're doing 
the credible fear interview, but they would be back before 
there was any kind of determination made in terms of release or 
parole.
    Mr. Chaffetz. So can you assure us that 100 percent of the 
people who are ultimately--who are released have been given an 
FBI--not just given or initiated, but they have completed the 
FBI background check and the fingerprint check?
    Mr. Ragsdale. So our policy requires that to happen. That's 
exactly right. And what I would also say is whether it's CBP, 
ICE, or CIS, at the various points, CBP would run all of those 
record checks at the time of apprehension. CIS would perform 
those same record checks at the time of the interview, and we 
would perform those same record checks for a third time before 
a release decision is made.
    Mr. Chaffetz. So nobody is released prior to those being 
completed?
    Mr. Ragsdale. We know as much about them as we possibly 
can.
    Mr. Chaffetz. Let me go back to parole. I am interested in 
the idea of parole. I am not an attorney, and my colleague Trey 
Gowdy says I am just bragging about that. But let me understand 
parole.
    How many people do we have that track--how many people are 
on parole? You are tracking them, right? ICE tracks them?
    Mr. Ragsdale. Well, there are three agencies here, and all 
three agencies have parole authority. It comes up in different 
circumstances. From the ICE perspective, we could be talking 
about parole from custody, which is a different thing than 
parole at a port of entry.
    Mr. Chaffetz. How many----
    Mr. Ragsdale. We could also be talking about parole on 
behalf of another law enforcement organization, which we do 
also at ICE.
    Mr. Chaffetz. How many? What is that grand total?
    Mr. Ragsdale. I would have to get you that number.
    Mr. Chaffetz. Do you have any idea of the estimate? I mean, 
you are supposed to be tracking them, right? So you supposedly 
have their names. How many people are on parole within this 
system?
    Mr. Ragsdale. I don't want to speculate and give you the 
wrong number, but we will certainly get you that correct 
number.
    Mr. Chaffetz. How long until I get that number?
    Mr. Ragsdale. We will do it with alacrity.
    Mr. Chaffetz. Can you give me a date?
    Mr. Ragsdale. Sir, I will give it to you in a week.
    Mr. Chaffetz. Thank you.
    When they go on parole, what sort of checks or backgrounds, 
or do they have to check in? Explain that process to me of 
being on parole.
    Mr. Ragsdale. Well, it depends on the circumstance. So for 
someone who is in immigration proceedings and who is paroled 
from custody, they will have a hearing in front of an 
immigration judge, and the immigration court will determine 
their appearance schedule.
    Mr. Chaffetz. So in my case of Phoenix, where they don't 
get a date for 7 years, they would be in a parole status. What, 
what sort of----
    Mr. Ragsdale. So I think we've heard several times today 
that immigration court hearing capacity is an issue.
    Mr. Chaffetz. It is a problem.
    Mr. Ragsdale. It's something outside of my control, but I 
certainly would agree that it is something that bears 
examination.
    Mr. Chaffetz. But I want to know how many people you have 
tracking them, what you do to track them?
    Mr. Ragsdale. We have about 5,000 officers in all--5,600 
officers in all of ERO. So it is a small number considering the 
overall volume, whether it's your number or mine.
    Mr. Chaffetz. Do you have anybody who is dedicated to 
following somebody on parole?
    Mr. Ragsdale. We have folks that manage the docket, and 
again, we cannot make a demand to remove somebody until an 
immigration judge decides their case.
    Mr. Chaffetz. Do you have--sorry, Mr. Chairman, but I----
    Mr. Gowdy. The gentleman from Utah is woefully over time.
    Mr. Chaffetz. Do you have anybody that tracks these people?
    Mr. Ragsdale. Yes, we do.
    Mr. Chaffetz. How many?
    Mr. Ragsdale. We will get you a fulsome answer on that 
question.
    Mr. Chaffetz. On that same date, a week from now?
    Mr. Ragsdale. Yes.
    Mr. Chaffetz. Thank you, Chairman.
    Mr. Gowdy. I thank the gentleman from Utah.
    The Chair would now recognize my friend from Illinois, Mr. 
Gutierrez?
    Mr. Gutierrez. Thank you, Mr. Chairman.
    I just want to talk a little bit about the asylum process, 
and first, I want to say that we are talking about credible 
fear and the President not enforcing the law and dangerous 
members of the drug cartels roaming our streets. I think it is 
important the Committee really, I believe, the last legislative 
day should be looking at a holistic approach of this within the 
confines of deportations and legalization, legal immigration, 
and including our asylum system.
    But I want to say that I think one of the things we need to 
focus on is the United States is still the international beacon 
of freedom for those facing oppression around the world. And 
people come here to take advantage of that, as well they 
should. That is what we want them to do. That is a very 
important job that we are doing.
    And so, I want to thank everybody for doing that important 
job. Now we have to figure out who the people are that are 
trying to take advantage.
    And I am sure there are people that take advantage of the 
food stamp program, but we are not going to let people go 
hungry. I am sure there are people who are taking advantage of 
unemployment compensation, but we are not going to tell 
somebody when they are unemployed we are not going to help them 
get back on their feet.
    I am sure there are people that take advantage of it, but 
you know what, fundamentally, this is a necessary program that 
we need to improve upon. The fact that it could take somebody 7 
years, lots of cases get decided well before 7 years. Depending 
on some jurisdictions, it is a year, 2, maybe 3 years at the 
out.
    The 7-year is like the outlier. It is like, you know, the 
one case that sticks out there like a sore thumb. It doesn't 
usually----
    Mr. Chaffetz. Will the gentleman yield?
    Mr. Gutierrez. Sure.
    Mr. Chaffetz. We are talking about the Phoenix office.
    Mr. Gutierrez. I understand that. But----
    Mr. Chaffetz. That is only three judges.
    Mr. Gutierrez. What I am trying--and as you will soon see, 
Mr. Chaffetz, I am going to get to that point. So I just want 
to put in for the record that this is really outliers these 7 
years, right? It is not happening that way in the City of 
Chicago. It is not happening that way in a lot of 
jurisdictions.
    Now, in all of the jurisdictions it is taking too long. So 
I think Mr. Chaffetz's question is a much more important 
question that we need to answer. It is great that you have a 
little under 300 people looking at asylum, and you are going to 
hire 100 more. The fact is we need to double it. Shouldn't be 
taking 1, 2, 3 years after.
    And I just want to say that as a member of the majority 
party in the sense that my President got elected, the guy I 
voted for got 5 million more votes than the guy you voted for. 
Nobody here, I can call them and somehow just some magic wand 
and I get somebody an asylum. I mean, there is a very rigorous 
process that has been taking care.
    And I understand that the majority party wants to look at 
this, but I assure you, they do background checks. You got to 
go to the FBI. And even after that, I think what you are going 
to find that you are not going to find evidence that anything 
other--even after they have established that and have gone on 
background checks, they have got to prove that they are not a 
flight risk.
    That means some people are a flight risk. Certainly that 
happens, but you have got to prove. I mean, I have worked on 
these cases. I have got to find a mom, a dad. I have got to 
find an uncle. I have got to find somebody, and we have to know 
who they are.
    It is not like, oh, okay, we are doing a background check, 
but we really don't know. We didn't find you were a bad person. 
No, we have to not only find out that you are not a bad person, 
we have to actually know who you are.
    And I would just think that maybe we might want to take, 
Mr. Chairman, some other measures so that we can reduce the 
number of people that don't show up to the cases. But let us 
remember, right, 75, 80 percent of the people do show up after 
they are released and do pursue the asylum claim. And they 
assume it, process it through the ultimate legal avenues that 
they have before them.
    So, I mean, let us try to put this in the focus that 8 out 
of 10 actually apply. They go through the process. They are 
either successful, or they are not successful. And that it 
takes too long.
    There are things we can agree on. It takes too long. So let 
us come back, and let us hire many more people so you don't 
have 7 years in the Phoenix office, and we don't have 2 or 3. 
It shouldn't be taking.
    And there won't be time today, but I think if we really 
looked into this, Mr. Chairman, what we are going to find, we 
are going to find hundreds, thousands of people who stay in 
jail, year in and year out, because they cannot prove if they 
are released. Yes, I knew I was going to find a strategy to 
use. But people do stay in jail for years until their asylum 
process. So that is an unfair process.
    So I think what we might want to look at is in the new 
year. And since the little yellow light is out, and the 
Chairman has always been so good to me, and we are in--we are 
going into a new year in 2014, I just want to say that, look, 
my hope is that next year, we can come back. We can look at 
this.
    Maybe they need ankle bracelets, Mr. Chairman. Maybe we 
need other monitoring processes to help them. So when they are 
released, we can monitor the folks. Maybe there are other 
avenues. But let us make sure that if somebody really fears 
death that America is still a safe beacon for them to be here.
    And I look forward. Merry Christmas to you guys, and great 
holidays. And I really look forward in 2014 to working with 
you, Mr. Chaffetz, and you, Mr. Chairman, and everybody on both 
sides of the aisle.
    Thank you. I have established some great friendships with 
you all, and it has been a good year for me, and I want to say 
thank you.
    Mr. Gowdy. Well, speaking just personally, I want to extend 
the same to you. And what a pleasure it has been to work with 
you for this past year.
    And the Chair will now recognize himself for 5 minutes. Mr. 
Ragsdale, I am not going to spend my 5 minutes debating 
statutory construction with you. There is a statute that says 
``shall be detained.'' That just does not strike me as being an 
ambiguous statute.
    To my friend from California's point, there is another 
statute, which is much more narrowly drawn. In fact, it is so 
narrowly drawn, it says ``to meet a medical emergency or 
necessary for legitimate law enforcement objective.'' I think 
you will agree that is much more narrowly drawn than ``shall be 
detained.''
    So, since I know you agree with that, what percentage of 
those that are apprehended at the border are detained versus 
paroled?
    Mr. Ragsdale. Last year, we had about 220,000 book-ins from 
CBP.
    Mr. Gowdy. What percentage would be detained versus 
paroled?
    Mr. Ragsdale. Of the 220,000 book-ins, it looks like about 
25,000 were paroled, about 10 percent.
    Mr. Gowdy. So, of that 25,000, you mean all of them can 
meet that very precise exception, medical emergency or 
necessary for legitimate law enforcement objective?
    Mr. Ragsdale. Well, and so, again, if you're talking about 
parole, in other words, 212(d)(5) parole, and I certainly don't 
want to debate statutory construction with the Chair, but 
urgent humanitarian needs and significant public benefit is a 
balance. The needs of the individual and versus the needs in 
terms of us balancing our resource requirements.
    If we look at 460,000----
    Mr. Gowdy. Does the ``shall be detained'' statute contain 
that same balancing?
    Mr. Ragsdale. Well, so there has been a fair amount of 
litigation about what ``shall'' means. We see it in the Ninth 
Circuit. We see it in the California. Believe me----
    Mr. Gowdy. Yes, and no disrespect to my friends from 
California, but you are going to have to cite me something 
other than the Ninth Circuit. I don't doubt that the Ninth 
Circuit can't define ``shall.'' I do not doubt that for a 
second.
    The rest of the country does know what ``shall'' means. So, 
because I am not going to debate statutory construction with 
you, I want to ask you this. Of those who are paroled, I prefer 
the phrase ``bond,'' but paroled, is there is a bond? Is it a 
surety bond? Is it a PR bond? What ensures that they will come 
back?
    Mr. Ragsdale. So immigration bonds are posted in a variety 
of ways. They're normally cash bonds. Again, if it's someone 
who has been apprehended between a port of entry, found to have 
a credible fear, is issued a notice to appear----
    Mr. Gowdy. Who determines that credible fear?
    Mr. Ragsdale. The Citizenship and Immigration Services.
    Mr. Gowdy. I have seen juries struggle for weeks and months 
to determine credibility. How long does it take them to 
ascertain whether or not someone is credible?
    Mr. Ragsdale. I would have to defer to my colleague at CIS.
    Mr. Gowdy. Well, while you are deferring, I want to ask you 
about a memo that was produced to the Committee 
surreptitiously. This was a form that was being completed by an 
agent, and a supervisor wrote this at the bottom of the form, 
``We are not investigating potential fraud. We are adjudicating 
asylum claims.''
    Do you agree with me that that is an oxymoronic statement?
    Mr. Ragsdale. I'm not familiar with that document.
    Mr. Gowdy. No, but you are familiar with the sentence 
because I just read it to you. ``We are not investigating 
potential fraud. We are adjudicating asylum claims.''
    Ms. Lofgren. Would the Chairman yield for a question?
    Mr. Ragsdale. I think inherent in the adjudication is 
detecting fraud.
    Mr. Gowdy. Pardon me?
    Mr. Ragsdale. I would say inherent in the adjudication is 
detecting fraud.
    Mr. Gowdy. So would I. So would I. So why would a 
supervisor----
    Ms. Lofgren. A parliamentary inquiry, Mr. Chairman. What 
document are you referring to, and does all the Members of 
the----
    Mr. Gowdy. A document has been produced to me and another 
Member of the Committee in confidence.
    Ms. Lofgren. Would it be possible to share that document 
with other Members of the Committee?
    Mr. Gowdy. I will be happy to ask the source of the 
document whether or not he has any objections to that. I do 
not. I am not going to endanger the confidentiality of this 
whistleblower, and I know that my friend from California would 
not ask me to do so.
    What I do find it striking that a supervisor is saying that 
we are not in the business of investigating fraud. We are here 
to adjudicate asylum claims.
    Mr. Johnson. Mr. Chairman?
    Mr. Gowdy. That just strikes me as being an oxymoronic 
statement.
    Mr. Johnson. Mr. Chairman, you are an attorney.
    Mr. Gowdy. Correct.
    Mr. Johnson. Proud attorney, I am sure, notwithstanding the 
comments that were made earlier by Mr. Chaffetz. But I know 
that you understand that rank hearsay, just hearsay on top of 
hearsay, copies of stuff, it is just not good, reliable 
evidence to----
    Mr. Gowdy. Well, reclaiming my time, Mr. Johnson, I am 
happy to run through whatever exception to the hearsay analysis 
you want me to go through. But you and I both know that there 
are last time I counted 24 different exceptions to the hearsay 
rule. So----
    Mr. Johnson. And this----
    Mr. Gowdy.--I will be happy to debate with you some other 
time. You are welcome to ask for a second round of questions, 
but I am not going to spend my time debating hearsay exceptions 
with the gentleman from Georgia.
    What I am going to ask, Mr. Ragsdale, is this. What is the 
punishment for falsely asserting that you have a credible fear? 
What is the sanction? What is the disincentive for asserting it 
when it is not true?
    Mr. Ragsdale. An immigration judge can make a frivolous 
asylum finding when they get to the ultimate asylum 
adjudication.
    Mr. Gowdy. And the sanction is what? That you are not going 
to benefit from your false assertion? Is there anything else--
--
    Mr. Ragsdale. Or have immigration benefit, for that matter.
    Mr. Gowdy. So if you weren't going to win if you told the 
truth and you are not going to win if you don't tell the truth, 
what is the punishment? What is the disincentive for that chart 
right there?
    Mr. Ragsdale. Well----
    Mr. Gowdy. Because you and I both know the cartels are a 
lot more dangerous now than they were 5 years ago.
    Mr. Ragsdale. Let me make it clear that we spend 25 percent 
of our criminal investigative hours on narcotics cases. We take 
that very seriously. It is the biggest piece of our 
investigative portfolio. So we are, like I say, very much 
concerned about the drug cartels.
    Mr. Gowdy. Well, tell me, walk me through that. Walk me 
through that credibility assessment then.
    Somebody says that I have a credible fear of the cartel. 
You could run an FBI check. I don't think the FBI keeps crime 
stats in Mexico or Guatemala or Honduras. So how do you do it?
    Mr. Ragsdale. What I'm saying----
    Mr. Gowdy. Well, walk me through it. You brought it up. 
Walk me through it, Mr. Ragsdale. Walk me through your 
investigation of credibility when you can't use U.S. law 
enforcement to do the investigation for you.
    Mr. Ragsdale. We do not do the adjudication for credible 
fears. Citizenship----
    Mr. Gowdy. Are you familiar with the process that is used?
    Mr. Ragsdale. I'm not an asylum officer. I've never done 
it.
    Mr. Gowdy. So you are not familiar with how they determine 
credibility?
    Mr. Ragsdale. I am familiar with the idea of credibility. 
As noted before, I am an attorney. I certainly know, as a 
prosecutor and a State prosecutor, you are well familiar with 
the concept. I certainly want, as a career law enforcement 
person, to want people to tell us the truth. I will tell you 
that we could prosecute folks for 1001, if that's what you're 
asking me.
    Mr. Gowdy. Well, of course not. Because you and I both know 
that is not going to happen, and that is my point. There is no 
disincentive for claiming it, even if it is not true.
    Mr. Ragsdale. The Immigration and Nationality Act does 
provide for a sanction. It is a frivolous asylum finding. That 
is the statute.
    Mr. Gowdy. Which means what? That you are not going to be 
successful? Well, you weren't going to be successful if you 
told the truth.
    Mr. Ragsdale. For that or any other immigration benefit for 
the rest of your life.
    Mr. Gowdy. If you fail to show up on bond or what is called 
parole in the statute, is that any negative inference with 
respect to the subsequent hearing on the merits?
    Mr. Ragsdale. Immigration judges are the ones who are the 
fact finders and deciders of hearings after----
    Mr. Gowdy. I am asking you. I am asking you, and if you 
don't know, that is fine. Is it something an immigration judge 
can take into consideration that a person failed to keep their 
appointed court date?
    Mr. Ragsdale. An immigration judge could take everything 
into consideration.
    Mr. Gowdy. Do they take that into consideration?
    Mr. Ragsdale. Sir, I'm not an immigration judge. I 
couldn't--I would be speculating.
    Mr. Johnson. Mr. Chairman, I have waited patiently, as the 
red----
    Mr. Gowdy. Mr. Johnson, with all due respect, had you not 
interrupted me, the red light would not have come on. So I am 
going to handle it the way I want to handle it. And if you 
would like a second round of questions, I am happy to entertain 
that.
    Mr. Johnson. Yes, I would.
    Mr. Gowdy. Be delighted to. I would now recognize the 
gentlelady from California for a second round of questions.
    Ms. Lofgren. Thank you.
    I would like to note just a couple of legal points. Section 
208 of the Immigration and Nationality Act, 208(c)(6) provides 
in the case of frivolous applications that the alien ``shall be 
permanently ineligible for any benefits'' under the chapter, 
which I think is a disincentive for proceeding. And I would 
like also to mention in terms of statutory construction, it is 
important to read the entire sentence in the--in Section 
235(b)(1)(B)(iii)(IV).
    ``Any alien subject to the procedures under this clause 
shall be detained,'' but only ``pending a final determination 
of credible fear of persecution.''
    And so, it is not a permanent incarceration mandate. It is 
a mandate prior to the credible fear determination, and I have 
heard no indication that that is not being adhered to. So I 
think it is important to have those facts on the record.
    You know, I want to get back to the reason why we have 
asylum in this country, and I would ask unanimous consent to 
place in the record information from the United States 
Holocaust Memorial Museum, chronicling the voyage of the St. 
Louis, one of the most shameful chapters in American history, 
where the German transatlantic liner, the St. Louis, traveled 
to Havana, where they were turned away. And then to Miami, 
where they were refused admission, and ultimately nearly all of 
the Jews who were on that liner perished in the Holocaust.
    That is not to say that inquiry into the process is 
impermissible, but it is that legacy that leads us to make sure 
that we have an asylum system that actually works, that 
continues to be a beacon of freedom.
    I think all of us are affected by matters on which we have 
worked, and I cannot help but recalling an asylum application 
that I weighed in on in the late 1990's. An individual who had 
been a pilot in the Afghanistan air force, and he had, I 
believe, a credible fear. And ultimately, he was denied asylum 
and returned to Afghanistan where he survived about 1 week 
before the Taliban executed him.
    So there are real consequences for giving short shrift to 
the claims of asylum for individuals who show up on our shores 
seeking freedom.
    Now looking at, if I may, Ms. Scialabba, the--we don't know 
the answer to what is going on in Honduras. The spike is 
primarily El Salvador, Guatemala, and Honduras. We know from 
our friends on the Foreign Affairs Committee, and Mr. Chairman, 
it might actually be a good idea to have some joint hearings 
with the Foreign Affairs Committee because this is their area 
of expertise on what is going on around the rest of the world.
    But there is at least some evidence has come to me that 
there is tremendous upheaval going on in Honduras today. And I 
am wondering if you have any information, either from the 
initial decisions that are being made on some of these cases or 
from research that the agency has done, what upheaval or is 
there upheaval that is contributing to this spike from those 
countries?
    Ms. Scialabba. Thank you, Congresswoman.
    I can tell you what the claims are that we're seeing, and 
they generally do involve fear of cartels, sometimes fear of 
the government. Sometimes it's domestic abuse. Sometimes it's 
political opinion that the basis is. But a lot of it is based 
on criminal activity and people being targeted by cartels, by 
gangs, by corrupt officials, and we also see the domestic 
violence claims.
    We also see some sexual orientation claims. I think those 
are the majority of--they fall into basically four categories 
for the most part of the claims that we're seeing.
    Ms. Lofgren. I see that my time has expired, Mr. Chairman. 
I yield back.
    Mr. Gowdy. I thank the gentlelady from California.
    Before I recognize the gentleman from Utah, I just want to 
read the--since we are now under the rule of completeness, 
reading the entire statute and all relevant provisions, ``If 
the officer determines at the time of the interview that an 
alien has a credible fear of persecution, the alien shall be 
detained for further consideration of the application for 
asylum.''
    With that, I would recognize the gentleman from Utah, Mr. 
Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    So, Mr. Ragsdale, when somebody is going in for that final 
adjudication process, they have claimed asylum, and the judge 
rules that they are not going to be granted asylum. Do you or 
do you not take them into custody and deport them?
    Mr. Ragsdale. Well, it depends on whether or not it's a 
final order of removal.
    Mr. Chaffetz. If it's a final order of removal and they are 
there in the court, do you take that person, if they happen to 
show up, do you take them into detention and deport them?
    Mr. Ragsdale. So in the very rare circumstance that someone 
gets a final order of removal from an immigration judge, we 
would make every effort to take that person into custody at 
that time.
    Mr. Chaffetz. Immediately, right there?
    Mr. Ragsdale. Assuming it was a final order, yes.
    Mr. Chaffetz. And if they--if they have been denied asylum, 
how do you go out and find that person, and what percentage of 
these people are you able to actually detain and deport?
    Mr. Ragsdale. So if you say they've been denied asylum, and 
they are pursuing an appeal?
    Mr. Chaffetz. Yes. Oh, no, no. They gone through all--they 
have exhausted their legal remedy. They have been ordered to be 
deported. Is it your primary responsibility to find and deport 
those people?
    Mr. Ragsdale. Yes, we have a national fugitive operations 
program, and that is their function.
    Mr. Chaffetz. And we have hundreds of thousands of people 
on this list. Correct?
    Mr. Ragsdale. Correct.
    Mr. Chaffetz. And this is the problem. If hundreds of 
thousands of people who would just ignore the law, they ignore 
the judge, they are supposed to be deported, they thumb their 
nose at us, and they just continue on here. That is the 
problem.
    Let us talk about USCIS. When somebody gets an opportunity 
to have their case adjudicated, they are claiming asylum. They 
have been, okay, let us go to the next step. In my case in 
Phoenix, it is going to take 7 years before they go to a judge. 
They can apply for a work permit. Correct?
    Ms. Scialabba. After 150 days, they can file an 
application. We have 30 days then to adjudicate it.
    Mr. Chaffetz. And what percentage of people that apply for 
a work permit do you grant a work permit to?
    Ms. Scialabba. In most cases, they get the work 
authorization if they're outside that timeframe.
    Mr. Chaffetz. So, Mr. Chairman, they come here. They get 
detained. They see a judge. They get a court date, which, in 
the case of Phoenix, is some 7-plus years, and then they 
essentially get free education, free healthcare. They can apply 
for work permit.
    You tell me the overwhelming majority are going to get a 
work permit, and then they can compete for--there is no 
limitation on what job they can get. Correct?
    Ms. Scialabba. Let me clarify what I said because I made it 
a general statement, and it's a little bit more complicated 
than that. If you're talking about an affirmative asylum 
application, we have a timeframe, and we work with EOIR to do 
those within 180 days. Do they all get done in 180 days so the 
person doesn't get work authorization? No, not necessarily.
    I was talking in terms of a defensive claim. If it goes 
directly to the immigration judge and the court hearing is 
going to be that far out, then, yes, it's likely they're going 
to get work authorization.
    Mr. Chaffetz. Because there is such a backlog we just go 
ahead, and so you see the perverse incentive, Mr. Chairman. The 
perverse incentive is you can claim asylum in the country. We 
have embassies and consulates. You can walk into there and 
claim asylum. Correct? Correct?
    Ms. Scialabba. Not exactly. No, that's not exactly how it 
works.
    Most of our refugee applications come through UNHCR. You 
could go into an embassy and say that you want to have a 
refugee adjudication. It's highly unlikely. It's rare.
    Mr. Chaffetz. But the perverse incentive here is come here 
illegally. Claim asylum. And then guess what? You are going to 
get free education, free healthcare, and you are going to apply 
and, most likely, odds are you are going to get a work permit.
    Ms. Scialabba. Well----
    Mr. Chaffetz. Instead of--instead of the person who tries 
to come here legally and lawfully isn't willing to break the 
law. There is a backlog. There is a line. I advocate for more 
legal immigration. I want to fix legal immigration. It is not 
working.
    But that person is suddenly now working in the United 
States of America with this work permit.
    Ms. Scialabba. I think I would also point out that quite a 
few people who apply for asylum actually did come into the 
country legally, not illegally. Probably half of the people who 
apply for asylum did enter----
    Mr. Chaffetz. Do you have any statistic that backs that up?
    Ms. Scialabba. I believe we do, and we can provide those to 
your staff.
    Mr. Chaffetz. Let me also understand. You were trying to 
distinguish the difference between somebody who is at a port of 
entry and the points in between, that one was going to go 
through parole. The other was going to go through a different. 
Can you explain that again to me, the difference?
    Mr. Ragsdale. And I apologize for a less than clear answer. 
There are different sections of law that the Immigration and 
Nationality Act allows for consideration for custody. One is 
under one section of the law. Another is under a different 
section of law. So while the terms ``parole'' and ``bond'' are 
used sort of in a vernacular, there are actually some legal 
distinctions in those sections.
    Mr. Chaffetz. We need some help understanding that because 
we're trying to look back at the law. I would ask unanimous 
consent to enter into the record the U.S. Immigration and 
Customs Enforcement memo issued on December 8, 2009, Parole of 
Arriving Aliens Found To Have a Credible Fear of Prosecution or 
Torture,* along with the record of determination, parole 
determination worksheet.
---------------------------------------------------------------------------
    *This material was submitted for the record earlier by Mr. 
Goodlatte (R-VA) and can be found on page 10.
---------------------------------------------------------------------------
    Mr. Gowdy. Without objection, with respect to that document 
and the document that Ms. Lofgren from California asked a UC on 
earlier.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Mr. Chaffetz. Thank you. My time has expired. So I yield 
back.
    Mr. Gowdy. The Chair will now recognize the gentleman from 
Georgia, Mr. Johnson.
    Mr. Johnson. Thank you.
    My colleague from Utah makes some excellent points about 
the bottlenecks that are created which result in more people 
being held in detention centers because the system is backed 
up. We don't have enough immigration judges, and we don't have 
enough asylum officers. I believe he has made those points.
    And those points are correct, is that right, Mr. Ragsdale?
    Mr. Ragsdale. I can't give specifics as those are two 
agencies by which I'm not employed. But I will say that for ICE 
and for the DHS enforcement arms generally, immigration court 
capacity is a concern.
    Mr. Johnson. Well, let me ask Mr. Fisher, it does go to the 
benefit of the private prison industry is when we have the 
bottleneck caused by not having enough immigration judges and 
not having enough asylum officers. Does that sound reasonable 
to you?
    Mr. Fisher. Yes, sir. But again, that's out of my area of 
expertise as a----
    Mr. Johnson. I understand. I understand.
    Mr. Fisher. Yes, sir.
    Mr. Johnson. I understand. Well, Mr. Chairman, Americans 
are overwhelming in support of a path to citizenship. We all 
agree that strong enforcement has its place in a balanced 
approach to comprehensive immigration reform. But a path to 
citizenship is critical to reform.
    This week, I proudly took part in the Fast for Families 
campaign. By fasting, I stood alongside my Democratic 
colleagues on this Committee who are following the examples of 
Martin Luther King, Jr., Mahatma Gandhi, and Nelson Mandela, as 
we address what has become a moral crisis in our society here 
in America.
    You know, this is not about drug cartels. It is not about 
the rules of legislative construction or the rules of evidence, 
or even the rule of completeness. This is about a moral dilemma 
that we face in this country. Are we going to continue to 
sacrifice the liberty of immigrants, mostly from south of the 
border or from Africa, Hispanics and Black folks, being feasted 
upon by the private prison industry?
    Are we going to continue to let that scenario line the 
pockets of the corporate bosses, or are we going to do 
something that is humane, justice--humane, just, and consistent 
with America's belief in due process? That is where we are 
right now.
    Now we have talked about a bottleneck caused by background 
checks, and I will note that Edward Snowden's background check 
was done by a private contractor. The person who killed the 
folks over at the Navy Yard, background checks done by private 
industry.
    Have we outsourced the background and security checks that 
we do for asylum seekers to the private sector, anyone on the 
panel?
    Ms. Scialabba. I'll answer for USCIS. No, we do not.
    Mr. Ragsdale. And I'll answer for ICE. No, we do not.
    Mr. Johnson. Do you have enough folks that are running 
those background and security checks employed at your agencies?
    Ms. Scialabba. I'll answer for USCIS. It's the actual 
officer who's going to do the credible fear interview or the 
asylum application who runs--who checks and runs those 
background checks.
    Mr. Johnson. Now, Mr. Fisher, your agency has the least to 
do with asylum applications out of the three agencies here. Do 
you--you don't do any background checks as Border Patrol. 
Correct?
    Mr. Fisher. That is not correct, sir.
    Mr. Johnson. You do?
    Mr. Fisher. Yes, sir.
    Mr. Johnson. Do you do them and pass it on to the asylum 
seekers--or the asylum officers?
    Mr. Fisher. The records themselves?
    Mr. Johnson. Yes.
    Mr. Fisher. We complete post arrest, including biographic 
and biometric information. We run federated queries that reach 
out and touch multiple databases to identify the individual and 
to ascertain at some level the risk.
    Mr. Johnson. But you do not make any determination about 
whether or not an asylum seeker has actually established a case 
of fear, of credible fear?
    Mr. Fisher. That is true.
    Mr. Johnson. All right. I will yield back the balance of my 
time.
    Mr. Gowdy. I thank the gentleman from Georgia.
    The Chair will now recognize the gentleman from Illinois, 
Mr. Gutierrez.
    Mr. Gutierrez. Could you please pronounce your last name 
for me? Not that I am going to get it right, but I am going to 
try.
    Ms. Scialabba. Scialabba.
    Mr. Gutierrez. Scialabba, okay. So, Deputy Director 
Scialabba, let me ask you a few questions, and Mr. Ragsdale, 
you chime in if you think you can be helpful, anyone who thinks 
they can be helpful.
    So how many people petition a year for asylum? How many 
people petition come----
    Ms. Scialabba. Asylum and not credible fear?
    Mr. Gutierrez. No. Well, make a credible fear application?
    Ms. Scialabba. Last, during 2013, there were 36,000 people 
who applied, requested credible fear interviews.
    Mr. Gutierrez. Okay. And then, of those who applied for 
credible fear interviews, how many were paroled?
    Ms. Scialabba. That I will refer to my ICE colleague on.
    Mr. Ragsdale. It's approximately 25,000.
    Mr. Gutierrez. About 25,000. So the remainder stay 
imprisonment until their cases are----
    Mr. Ragsdale. They were either detained or if a negative 
credibility--excuse me, a negative finding was found, they were 
removed.
    Mr. Gutierrez. They were removed. Okay. So you have 36,000, 
25,000 move forward in the process. I am just trying to figure 
out because I am talking to Mr. Chaffetz, and we are trying to 
figure out what is happening numerically.
    Ms. Scialabba. We found credible fear in 30,000 cases. Some 
of those probably withdrew before they went before the 
immigration judge. Others will have gone before the immigration 
judge. In terms of their custody, it will depend on whether 
they came in at a port of entry or whether they came in between 
the ports of entry.
    At the port of entry, we can parole them. If they came in 
between the ports of entry, we could set a--I'm speaking for 
ICE, sorry. They could set a bond, or the immigration judge can 
set a bond, and then they can be released that way.
    Mr. Gutierrez. But before--well, you know what, we are 
really going to need to have some, Mr. Chairman, some----
    Ms. Lofgren. Would----
    Mr. Gutierrez. Yes?
    Ms. Lofgren. Would the gentleman yield for a question? 
Because, Mr. Ragsdale, I am mystified by your answer on the 
parole. Because we got the information from ICE dated December 
5th, which was last week, that indicates that the total 
approvals were 2,467 for year 2013.
    Mr. Ragsdale. Approvals of?
    Ms. Lofgren. Parole.
    Mr. Ragsdale. So of the 25,000 roughly, about 12,000 were 
released on bond. About 8,000 released on their own 
recognizance, and about 4,390 were released on parole. So it 
sort of depends, and the only thing I could sort of----
    Ms. Lofgren. Well, why would the agency have given us the 
number of 2,467 if it was 4,000?
    Mr. Ragsdale. Well, I certainly apologize for the 
discrepancy. I'm not familiar precisely with what you're 
looking at, but we will certainly make sure that's clear to 
you.
    Ms. Lofgren. I thank the gentleman for yielding.
    Mr. Gutierrez. Yes, and I think--Mr. Chairman, I think, I 
was talking to Mr. Chaffetz, and I think we are going to need 
some more information so that we can get some specific. Because 
I don't think, I could be wrong, that--so you treat Mexicans 
and other nationals differently? Anybody can answer.
    Mr. Ragsdale. No.
    Mr. Gutierrez. No? There is not other than Mexicans and 
Mexicans as you are looking at them in terms of categorizing 
those that apply for asylum?
    Mr. Ragsdale. They make--if they make--apply for 
protection.
    Mr. Gutierrez. Apply for protection there is no difference?
    Mr. Ragsdale. Not that I'm aware of.
    Mr. Gutierrez. Really? Okay.
    Mr. Chaffetz. Will the gentleman yield?
    When I went to the Eloy detention facility, when I was down 
on the border, you have two categories of how you recognize 
them--OTMs, other than Mexicans, and Mexicans. It was pretty 
clear that somebody that was detained by the Border Patrol 
would, in many cases, be deported immediately, within, say, an 
hour or so in some cases back across the border. But if they 
were OTMs, a little different process they are going to go 
through.
    Mr. Gutierrez. And I have heard the same thing, and we are 
not--with no hostility toward you, if you could help us?
    Mr. Ragsdale. Just Mexico is a unique country. They can be 
removed physically by ground transportation.
    Mr. Gutierrez. I understand, but there is a difference. You 
do categorize them differently----
    Mr. Ragsdale. Their rights under the law are identical.
    Mr. Gutierrez [continuing]. Those who are Mexican and 
Mexican nationals and others.
    Mr. Ragsdale. Their rights under the law to apply for 
protection are exactly the same.
    Mr. Gutierrez. I understand their rights under the law are 
protected the same. Then why don't you just treat them all the 
same? Why do you categorize them differently?
    First you are saying that you don't categorize them 
differently, but all my information is that you do categorize 
them differently. And the moment you categorize somebody 
differently, you are kind of undermining their rights. I mean, 
I would rather be in the general category than in a category of 
people that really get shipped back rather quickly and get 
denied.
    I mean, if you were to take--let me just ask you a 
question. If you were to take Mexican national vis-a-vis 
nationals from India, Pakistan----
    Mr. Chaffetz. Africa.
    Mr. Gutierrez.--Africa, name the country, are you telling 
me that there is no difference in the percentage of denials 
between Mexicans and other nationalities?
    Mr. Ragsdale. When you're saying ``denials,'' do you mean--
--
    Mr. Gutierrez. People who aren't found with credible fear. 
People who never get asylum. People who are just said, adios, 
go back where you came from. The denial rate is no different?
    Mr. Ragsdale. The denial rate for Mexicans, I would 
suspect, is higher.
    Mr. Gutierrez. Thank you. So I would like to know the 
number. So you see, my point is, first of all, we are talking 
about drug cartels, and the drug cartels the last time I read 
are from Mexico. And they only represent 7 percent, right, of 
all of those who are applying for credible--what is the 
percentage?
    Ms. Scialabba. It's 7 percent.
    Mr. Gutierrez. Seven percent. So now we are only talking 
about 7 percent of the totality of them. And we do know that 
they go through rigorous background checks. You are not going 
to release them until the FBI does a background check on them.
    I think the Chairman makes a good point. Maybe we need to 
have some--so you have no relationship in checking on somebody 
with another country in terms of checking whether these people 
are criminals? You have no way?
    Mr. Ragsdale. These are domestic law enforcement data.
    Mr. Gutierrez. These are domestic law enforcement. Well, 
maybe we should begin to look at that.
    Mr. Ragsdale. Well, so there certainly is some information 
that we share from our international affairs program. There are 
some biometrics that are shared with the governments of 
Honduras, El Salvador, and Guatemala. There is some 
information.
    But the NCIC query, the TECS query----
    Mr. Gutierrez. What you are saying is the Drug Enforcement 
Agency of the United States and the Justice Department of the 
United States and those of us in the Federal Government that 
are fighting drugs and crime----
    Mr. Ragsdale. Those records are checked.
    Mr. Gutierrez. Excuse me?
    Mr. Ragsdale. Those records are checked.
    Mr. Gutierrez. Those records are checked. Good. And we are 
not checking with our counterparts in other countries?
    Mr. Ragsdale. Not every country has the same systems.
    Mr. Gutierrez. Not every country. How about Mexico? Let us 
try one country.
    Mr. Ragsdale. We share some information with Mexico.
    Mr. Gutierrez. That is what I always understood up until--I 
mean----
    Ms. Lofgren. Would the gentleman yield?
    Mr. Gutierrez. Yes.
    Ms. Lofgren. It mainly depends on the political 
relationship we have with the foreign country. I mean, we share 
terrorism information with Russia.
    Mr. Gutierrez. Because----
    Ms. Lofgren. And quite a few other things.
    Mr. Gutierrez. Thank you, Mr. Chairman. And we are going to 
conclude. Because here is what I find astonishing. We do--I 
mean, the success against a drug cartel, in great measure, is 
due to the intelligence services of the United States of 
America in identifying where they are at and locating them for 
the Mexican government. That is just a fact.
    And when the new government, the new government was just 
brought in, they were quite astonished at the level of 
cooperation that exists between our intelligence services, our 
law enforcement services, including others, and I don't want to 
say anymore because, you know, then all of a sudden you are 
giving away state secrets. But I have read this stuff in 
Newsweek and Time.
    Here is my point. I think, Mr. Chairman, we can make good 
points. It is taking too long, and we should try to figure out 
those that are taking advantage of the system. I don't believe 
personally that drug dealers and members of the drug cartel are 
showing up at our border and saying, voila, why don't you check 
me out?
    I think they have other avenues to enter the United States 
through other mechanisms other than checking in with you, 
including a flight to Canada and coming through the border that 
is virtually unchecked on the northern part.
    So, having said that, I think also, though, I want to just 
emphasize what Congresswoman Lofgren said. You know, people are 
coming here. We have got to design a system that doesn't cause 
their ultimate death because we are the beacon of hope. We are 
the place where people come to seek refuge.
    So I think you are making good points. I think, together, 
we can put monitoring systems. We can do other checks and 
balances so that the majority. But let us just establish it is 
only 7 percent from Mexico. So I don't want headlines tomorrow, 
right, all of these drug cartels.
    And it is really not about the drug cartels. Most of this 
has nothing to do with the drug cartel. And it is really people 
trying to get credible fear.
    And I do want you to come back with information about 
Mexicans and other than Mexicans because I understand they are 
all the same, but they are treated differently statistically. 
And I would like to know why a claim from a Salvadoran 
national, a Honduran national, or a Guatemalan national is 
treated differently than one of a Mexican national.
    Because I am going to tell you something. From all of the 
information we receive here, whether through the Intelligence 
Committee or through other sources of information, it is 
virtually dangerous in many of those places equally. I wouldn't 
want to dial 911 and expect the police to show up.
    Thank you very much, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Illinois.
    The Chair would now recognize the gentlelady from 
California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I would like unanimous consent to put in this document that 
explains the legal authority, both in terms of case law as well 
as statutory authority for parole, as well as you and I have--I 
think have a great working relationship, suggests that we might 
sit down at some point after this and go through the section of 
law. Because I think if we do, we will come to a meeting of the 
minds.
    Mr. Gowdy. Yes, ma'am.
    Mr. Chaffetz. What is--pardon me. But what is the source of 
this document that interprets the law for us?
    Ms. Lofgren. It is from the U.S. Immigration and Customs 
Enforcement. It is a recitation of the statutes as well as the 
cases.
    Mr. Chaffetz. That would be great.
    Mr. Gowdy. Without objection, I will look forward to 
working with the gentlelady from California, as I always do.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. I will recognize myself for the final round 
of questions. And I was listening to my friend from Illinois 
talk just a few moments ago, and my friend from Utah, who, 
although they sit on different sides of the aisle, both strike 
me as incredibly compassionate people who don't want anyone who 
is being persecuted to not be able to avail themselves of the 
protections and the freedoms of this country.
    No one has ever accused me of being compassionate. 
Nonetheless, I did introduce a bill that if you--that there 
will be no foreign aid to any country that discriminates on the 
basis of religion or who denies equal access to education based 
on gender. Now that bill has zero chance of passing, but I say 
that just to say I don't want anyone who is under a legitimate 
threat of being persecuted because of a belief to have to stay 
where they are.
    But I also don't like fraud. And when I see that chart, 
what that chart requires me to accept is that the world is 
twice as dangerous in 2013 as it was in 2012. Because the 
numbers are more than double for 2013 than 2012, and that 
strains credibility.
    If you are just watching C-SPAN at home, which means you 
have nothing better to do. But if you are watching this hearing 
at home, you just know intuitively that the world is not twice 
as dangerous as it was in 2012. So what explains the spike? 
What explains it?
    Could any part of it be fraud? Could any part of it be that 
the message has gotten out that if you utter these talismanic 
words, regardless of the authenticity, that you are going to be 
better off?
    I have heard about Honduras, and I have heard about 
Guatemala. The numbers are also up in India, Nepal, Bangladesh, 
China. So if the word has gotten out that you can game the 
system, which, by the way, also undercuts the legitimacy of 
legitimate claims. It is just not that it divert resources. It 
undercuts the legitimacy of people who are being persecuted.
    So we ought to--if we can agree on nothing else, and there 
are days I don't think that we can. But we ought to be able to 
agree that we don't want people gaming the system, and we don't 
want fraud.
    Mr. Ragsdale, are you familiar with the Dream 9 or the 
Dream 30?
    Mr. Ragsdale. I am familiar with them, yes.
    Mr. Gowdy. Okay.
    Mr. Ragsdale. Not personally, but I have obviously----
    Mr. Gowdy. Can you help me explain, if I am asked when I go 
back home, how would you voluntarily leave this country with 
its protections and its safeties, cross the border to make a 
political statement, and already have your paperwork drafted by 
a lawyer where you are asserting a credible fear? How is that 
successful?
    How can you be credibly fearful of returning to a country 
that you just voluntarily returned to? How does that work?
    Mr. Ragsdale. Again, ICE does not make credible fear 
determinations. That is done by CIS. So we cannot look behind 
that decision.
    Mr. Gowdy. Who should I ask?
    Mr. Ragsdale. What I can report to you is statistics.
    Mr. Gowdy. I don't want statistics. I want--I want to know 
how I can explain how people who leave this country to make a 
political statement and then want to hide behind this, how do I 
explain that?
    Ms. Scialabba. There are situations where people will 
return to the country that they are originally from, and then 
they will experience some sort--the people that you're talking 
about initially were not asylum applicants. They had deferred 
action under the childhood arrival provision.
    Mr. Gowdy. Oh, I know that. How long were they out of the 
country?
    Ms. Scialabba. Not--well, it varies. Case by case, it 
varies.
    Mr. Gowdy. What was the shortest amount of time they were 
gone?
    Ms. Scialabba. Oh, honestly, I don't know off the top of my 
head.
    Mr. Gowdy. Well, just give me a good guess. I am not going 
to hold you to it.
    Ms. Scialabba. Maybe a week.
    Mr. Gowdy. A week? So in the course of a week, you can 
develop a credible fear claim. And by the way, you actually 
developed it before you ever left because you had your attorney 
prepare the paperwork.
    Ms. Scialabba. That I'm not aware of. But let me----
    Mr. Gowdy. Well, I am just telling you. It undercuts the 
credibility of people who have legitimate claims when you 
demagogue it and you politicize it.
    Ms. Scialabba. Well, I can give you two examples of cases 
that came, that did that, went back to Mexico, and I'm not 
advocating that they should have done that. But went back to 
Mexico and came back. And the claim was for one was based on 
sexual orientation. So that is a legitimate on which the claim 
of credible fear----
    Mr. Gowdy. I am not debating the legitimacy of that. I am 
debating the logic of returning to a country that you are so 
fearful of that you want to permanently stay in another 
country. I am just telling you it strains logic, and it strains 
credibility, and it smacks of making a political point.
    Is that chart accurate?
    Ms. Scialabba. Yes, it's accurate.
    Mr. Gowdy. All right. Is the world twice as dangerous in 
2013 as it was in 2012?
    Ms. Scialabba. I think you will see, if you look at the 
history of credible fear, that the nationalities will change on 
a regular basis and the fluctuations will change on a regular 
basis.
    Mr. Gowdy. Well, I am looking at it. I am looking. I don't 
see any fluctuation that even approaches 2013 juxtaposed with 
2012.
    Ms. Scialabba. It does not. It does not.
    Mr. Gowdy. Okay. So what do you explain the spike in 2013? 
Is there any chance it could be that we have figured out if you 
just utter this talismanic phrase, you are going to be better 
off?
    Ms. Scialabba. Well, I will tell you we have been working 
closely with ICE and CBP because we are concerned with the 
large number of people who are claiming credible fear. But the 
stories that we're hearing and that they're telling us do rise 
to the low level that's required for credible fear referral. 
It's only a screening process.
    Mr. Gowdy. Okay. And I want you to tell me, as an old 
washed up prosecutor, how you analyze credibility.
    Ms. Scialabba. Our asylum officers are trained on 
credibility. You have to look at what the story that they're 
telling you, whether it's consistent, whether it's detailed, 
and whether it has a nexus to one of the five grounds for 
asylum. Persecution----
    Mr. Gowdy. What kind of investigation do you do?
    Ms. Scialabba. We do all the background checks.
    Mr. Gowdy. Well, but it is tough to do a background check 
if you haven't been convicted of a crime. I mean, what are you 
going to check? A credit history?
    Ms. Scialabba. No. We check the FBI fingerprints----
    Mr. Gowdy. Okay. I haven't been convicted of a crime.
    Ms. Scialabba. We do TECS checks as well, which is a 
database from CBP.
    Mr. Gowdy. How long does this investigation last? How long 
does the interview last?
    Ms. Scialabba. These are checks, not investigations.
    Mr. Gowdy. Okay. How long does a check last?
    Ms. Scialabba. We are not an investigative agency.
    Mr. Gowdy. How long does a check last?
    Ms. Scialabba. The checks are run through the databases. 
They're pretty quick.
    Mr. Gowdy. I am just telling you. I don't know whether you 
were a prosecutor in a former life or not. I can just tell you 
this. It is really tough to assess credibility. Some people 
can't do it in weeks or months.
    I hope--I would love to see a program that Luis Gutierrez 
and Jason Chaffetz and Zoe Lofgren and Louis Gohmert all agree 
is being done so well and that there is so much of an interest 
in ferreting out fraud that we don't have to have this hearing 
again. But I can just tell you, when you see a spike like the 
one from 2013 to 2012, it is impossible to explain to the 
people we work for anything other than someone has figured out 
how to game the system. Can you appreciate that?
    Ms. Scialabba. I can appreciate that.
    Mr. Gowdy. All right. Thank you.
    On that note of conciliation, Mr. Chaffetz?
    Mr. Chaffetz. I will be brief. Thank you, Mr. Chairman.
    Going back to those people that are going through this 
assessment and checking, their performance evaluation--these 
asylum officers, their performance evaluation, is any part of 
their performance evaluation based on the number of approvals 
or disapprovals?
    Ms. Scialabba. No, it is not. And all cases are reviewed by 
a supervisor.
    Mr. Chaffetz. How many supervisors are there?
    Ms. Scialabba. Seventy-five supervisors.
    Mr. Chaffetz. Is any part of their performance evaluation 
based on how long they have to take on each case?
    Ms. Scialabba. No. I mean, we--no, it's not. We have 
requirements on how quickly we want to move cases through the 
process, but someone's rating is not based on the number of 
cases that they are doing or not doing. We have goals. We 
definitely have goals.
    Mr. Chaffetz. In your ideal world, how long should it take 
to move a case through the system, and what is the reality of 
how long it is actually taking?
    Ms. Scialabba. Which system are you referring to?
    Mr. Chaffetz. Well, the one you just referred to.
    Ms. Scialabba. Expedited removal?
    Mr. Chaffetz. Yes, sure. That one.
    Ms. Scialabba. Expedited removal. On average, it's about 19 
days before a case is referred to us for a credible fear 
interview. We're doing them within 8 days. We do the interview 
for credible fear and then refer the case back to ICE.
    Mr. Chaffetz. And is there a goal that you said you are 
going to add 100 new officers or 100 new people to this. I am 
trying to get the metric that says this is how big the backlog 
is.
    Ms. Scialabba. We don't have a backlog on credible fear. 
Where we're suffering is in the affirmative asylum process 
because we've devoted the resources to the credible fear 
process.
    Mr. Chaffetz. So how, again, you are hiring 100 new people, 
and you have 270, did you say?
    Ms. Scialabba. Two hundred seventy, yes.
    Mr. Chaffetz. So what is the backlog or why--I think I 
understand why. But I want to hear from you, why are you hiring 
100 new people where 270 was insufficient?
    Ms. Scialabba. Because we were devoting people who would 
normally be doing affirmative asylum applications to the 
credible fear process because of the spike that you're seeing 
there of people applying for credible fear. And we need to add 
the asylum officers to stay current with the affirmative asylum 
process also.
    Mr. Chaffetz. Do you meet with all of these people in 
person?
    Ms. Scialabba. Which?
    Mr. Chaffetz. When you are interviewing. You are trying to 
assess--going to Mr. Gowdy's point, when you are trying to 
assess somebody's credibility, do you meet with all of these 
people in person?
    Ms. Scialabba. On the credible, you're referring to 
credible fear?
    Mr. Chaffetz. Yes.
    Ms. Scialabba. No, we don't meet. We do V-tel, we do in-
person, and we also do telephonic.
    Mr. Chaffetz. So you are assessing somebody's credibility 
on the telephone?
    Ms. Scialabba. In some instances, yes.
    Mr. Chaffetz. And how long is that interview going on?
    Ms. Scialabba. Those interviews are about 20 minutes. It's 
a screening process. It's not a process to determine whether 
someone is actually going to get asylum. It's to determine 
whether there's a significant possibility that they could get 
asylum from an immigration judge.
    Mr. Chaffetz. And this is the concern, Mr. Chairman and to 
the other Members of this panel, 20-minute telephone 
conversation we are assessing them, and in many cases, we are 
allowing them to stay here for 7 years. They get a work permit. 
They can get free education, free healthcare. I mean, all these 
benefits for simply touching base here.
    I yield back. I appreciate this hearing. It has been a 
fruitful dialogue.
    One last encouragement. We need metrics. Metrics that we 
can work on the same pages. This has been an ongoing problem 
with Homeland Security, to get metrics that we can all look at, 
not dispute. We just need your ongoing help. Just please help 
us with that so we get--we want to get it right, but we need 
the metrics to do so.
    Appreciate the Chair, and appreciate this hearing and yield 
back.
    Mr. Gowdy. The gentleman from Utah yields back.
    I will give my friends on the other side the same amount of 
time. It seemed longer, but I think he only took 5 minutes. So 
I am going to divide it. However Mr. Johnson and Mr. Gutierrez 
want to use it, and I am done. So----
    Mr. Johnson. All right. Thank you, Mr. Chairman.
    The majority is arguing here that the credible standard of 
fear--the credible fear standard, which is set by statute, is 
too low. And they are also arguing that because of an alleged 
spike in the number of claims of credible fear, then there must 
be something that the Obama administration has to do with that. 
In other words, this is Obama's fault that we are having a 
spike in these credible fear asylum claims.
    Now it is true that this fear found rate is higher than it 
has been since fiscal year 2006, when it was also 83 percent. 
It is 83 percent now. It is an 83 percent figure now. It was 83 
percent in fiscal year 2006, was it not, Ms. Wasem?
    Ms. Wasem. I believe that's correct.
    Mr. Johnson. And matter of fact, fiscal year 2000, the 
credible fear rate was 93 percent of the cases. Is that 
correct?
    Ms. Wasem. I do not have the 2000 data.
    Mr. Johnson. Well, according to my data, it was a 93 
percent rate. And in fiscal year 2001, the rate was 94.5 
percent, and it only dropped below 90 percent after 2005, and 
that is attributable probably to two things. One, there was a 
policy change that stopped placing Cubans arriving at land 
ports of entry into expedited removal. And second, the 2004 
REAL ID Act contained changes in asylum law that made asylum 
harder to obtain.
    And as a result, this decreased the percentage of cases in 
which asylum officers were able to find a significant 
possibility that the alien could establish eligibility for 
asylum under Section 208. But, and I will say also that when 
one looks around the world, take India, for example, one of my 
colleagues from the other side cited. The rapes of women, does 
that contribute to these requests for asylum?
    Syria, the displacement of so many people, hundreds of 
thousands of people. South Sudan, Somalia, Central African 
Republic, Democratic Republic of Congo, all of these fights 
that are going on, Egypt.
    And at this point, I will yield the balance of my time to 
Mr. Gutierrez.
    Mr. Gutierrez. Thank you, Mr. Chairman.
    And I just want to make sure we work with Mr. Chaffetz 
because I believe he is correct that when you finally are 
granted asylum, you do have special provisions for education 
and for healthcare once you are granted so that you can 
integrate. But I would like to see--I don't think you just show 
up at the border, get a credible fear and that somebody gives 
you Blue Cross Blue Shield and a Pell grant. That is just not 
happening.
    But I do think at the end of the process that is happening, 
as well as it should as established by law. I would like to 
look at that. And I do think, Mr. Chairman, we have a 
responsibility. I love this program. I want this program, and I 
know you want--you have dedicated your public lives to this 
program. I want it to work.
    And if you see something wrong in a program and you don't 
attack it, then you are really not safeguarding the program. 
You are really not demonstrating your true love for the program 
and its principles. And too many people's lives are at stake to 
let a few people who are, you know, as whatever, using the 
system for their own personal gain.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Illinois.
    This concludes today's hearing. I want to say thank you to 
all the witnesses for attending, for your testimony, for your 
comity with each other and with the Committee.
    Without objection, all Members will have 5 legislative days 
to submit additional questions for the witnesses or additional 
materials for the record.
    With that, the hearing is adjourned.
    [Whereupon, at 1:24 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               



                                <F-dash>

 Material submitted by the Honorable Zoe Lofgren, a Representative in 
  Congress from the State of California, and Member, Committee on the 
                               Judiciary


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>


</pre></body></html>
